<html>
<title> - THE CHALLENGES AND OPPORTUNITIES FACING DISABILITY CLAIMS PROCESSING IN 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
THE CHALLENGES AND OPPORTUNITIES FACING DISABILITY CLAIMS PROCESSING
IN 2006

WEDNESDAY, DECEMBER 7, 2005

U.S. HOUSE OF REPRESENTATIVES,     
COMMITTEE ON VETERANS� AFFAIRS,
Washington, D.C.

	The Committee met, pursuant to call, at 1:10 p.m., in 
Room 334, Cannon House Office Building, Hon. Steve Buyer [Chairman 
of the Committee] presiding.
	Present:  Representatives Buyer, Stearns, Brown, Miller, 
Evans, Snyder, Michaud, Herseth, Hooley, Berkley, Udall.

	THE CHAIRMAN.  Good afternoon.  The Committee will come to 
order.
	Today we will receive testimony on the challenges and 
opportunities facing the Veterans Benefit Administration�s claims 
processing system.
	In fiscal year 2005, the Department of Veterans Affairs paid 
monetary benefits to 3.5 million service disabled veterans, eligible
 survivors, and, in some instances, disabled children of Vietnam era 
veterans, an obligation of more than $32 billion.  This represents an 
83 percent increase in the past ten years.  In 1995, the mandatory 
payments were just shy of $18 billion.
	When you look at it from 1995 to 2005, you have to take into 
account the increased operational tempo of the United States military,
 whether it was the post-Gulf War, Somalia, Bosnia, Kosovo, Gulf 
War II, or Afghanistan; training; or other commitments to regions and
 countries around the world, the force has experienced a great deal of
 stress, and there are consequences.
	VBA has 8,918 dedicated employees processing disability and 
pension claims at regional offices across America.  As reflected in 
Admiral Cooper's November 3rd testimony before the Disability 
Assistance and Memorial Affairs Subcommittee, VBA in 2005 made over 
763,000 disability determinations, performed more than two million 
award actions, handled over 6.3 million phone calls, conducted over 
a million interviews, and conducted nearly 70,000 hours of outreach 
to military members, former prisoners of war, homeless veterans,
 minorities, female veterans, and other targeted groups.
	What we need to know is whether this system is buckling under
 pressure.  As of two days ago, there are more than 370,000 compensation
 and pension claims pending, with more than 85,000 claims pending over 
180 days.
	In October, rating-related claims were pending on average 124 
days, and it was taking another 155 days to complete a decision.
	There are almost 40,000 appeals pending at the Board of Veterans'
 Appeals and about 32 percent are remanded to the original regional 
office or the Appeals Management Center for further development.  It is
 no surprise that the backlog is consistently cited as a major concern 
among the Committee members, among our colleagues, and VBA's
 stakeholders.
	VA estimates that in fiscal year 2006, it will receive more 
than 725,000 compensation rating-related claims, an increase of three 
percent over fiscal year 2005.  The most time-consuming claims are 
original, or first-time filings, because the entire record needs to be
 developed; VA estimates it will receive a little more than 206,000 new 
claims in fiscal year 2006.
	The most common claims, however, are those reopened by veterans 
filing for an increased rating or a new disability altogether.  VA 
estimates it will receive more than 464,000 reopened claims in fiscal 
year 2006.
	By September of 2003, VBA had significantly reduced the number 
of pending claims to 253,000 from a high of 450,000 in 2001.  The 
average days pending was reduced to 111 days.   
	I look forward to today�s testimony as we begin to understand 
what has happened in the last several years that has led us to the vast
 inventory of claims.
	[The statement of Steve Buyer appears on p. 55]

	THE CHAIRMAN.  I would now like to recognize the Ranking 
Member, the gentleman from Illinois, Mr. Evans.
	MR. EVANS.  Thank you, Mr. Chairman.
	I also am concerned about the continuing problems with poor 
quality and large backlogs that are due to VA's insufficient funding 
for appropriate numbers and type of staff.
	Last Spring, Democrats on this Committee urged for additional 
funding for staff to process claims for veterans and appeals at the 
Board.  That request was rejected by the Budget Committees.
	The VA cannot be expected to provide decisions of acceptable 
quality and timeliness without adequate resources.  More veterans are 
applying for benefits.  More veterans who appeal decisions are waiting 
years for hearings before the Board.
	Staff who process claims feel overwhelmed and under-trained.  
The results are predictable: longer delays and more errors as well.
	The Administration and Congress must work together to provide 
the resources VA needs to decide claims fairly and accurately in a 
timely manner.
	I want to thank you all.  And I want to thank you, Mr. 
Chairman, and all of our witnesses, and yield back the balance of my 
time.
	[The statement of Mr. Evans appears on p. 57]

	THE CHAIRMAN.  Thank you, Mr. Evans.
	Mr. Brown, you are now recognized, and I understand you have 
had a significant loss in the State of South Carolina.
	MR. BROWN.  Yes, Mr. Chairman.  Former Congressman Carroll 
Campbell, former governor of our state, passed away today.  And I know 
we all want to express our sympathies to his family.  Thank you for 
allowing me this privilege.
	Mr. Chairman, as a member of this Committee for many years, I 
have been deeply involved working with VBA to improve the Disability
 Compensation and Pension Claim Program which our deserving veterans
 rightfully depend.
	I was encouraged in 2003 when we were beginning to see VBA make
 significant progress in reducing the number of claims pending.  
However, recent reports are very troubling because they demonstrate the
 VBA claims process has again taken a turn for the worse, and the number
 of claims pending are once again on the rise.
	In addition to those that have been in the system for some time,
 I am also extremely concerned about our new generations of war veterans
 coming home with injuries and disabilities that are not always physical.
  This was reflected in the dramatic increase in veterans filing for
 disability compensation for posttraumatic disorder.
	It is our duty to see that each and every veteran is given an
 accurate, appropriate, and timely determination on their disability 
claims to ensure they receive the benefits they deserve.
	Mr. Chairman, I appreciate you holding this very important 
hearing today to dig deep into how VA�s Disability Compensation and 
Pension Claim Programs are designed, how they are currently operating,
 and allowing us the opportunity to examine ways to, number one, update 
the programs to account for development in medicine and technology and 
change in our job market; number two, to improve the handling of 
disability claims; and, number three, strengthen administrative 
oversight.
	I look forward to hearing from our expert witnesses, and yield 
back the balance of my time.
	THE CHAIRMAN.  Mr. Brown, appreciate your contribution and that 
of your counterpart, the Ranking Member of the Health Subcommittee.
	Mr. Michaud, you are recognized.
	MR MICHAUD.  Thank you very much, Mr. Chairman.  I would like to 
thank both you and the Ranking Member for having this hearing.
	I think it is also extremely important that we deal with these 
claims and their process in an efficient manner and that we do everything 
as a Committee in this Congress to make sure that the resources are there 
so that we can process in an efficient manner.
	I yield back to my colleague.
	THE CHAIRMAN.  Thank the gentleman for his leadership.   
	Also Mr. Miller is Chairman of the Disability Assistance and 
Memorial Affairs Subcommittee.  You are now recognized for an opening
 statement.
	MR. MILLER.  Thank you, Mr. Chairman.  I do have a full 
statement I would like entered into the record, but I would say -- 
	THE CHAIRMAN.  It shall be entered into the record.
	MR. MILLER.   -- that throughout the Second Session of the 
109th Congress, our Subcommittee intends to hold a series of hearings 
on the challenges and issues that face VBA in the 21st century.
	We will include a review of the policies and laws that affect 
claims processing, the impact of the "Veterans Claims Assistance Act,"
 training and performance standards for claims adjudicators, the role 
of national and county service officers in claims development, and 
VBA's outreach efforts to veterans and survivors.
	We all know that Congress cannot just simply continue to throw 
money at a problem and expect that problem to go away.  As reports, 
studies, and experience have shown, there are a variety of factors 
which have a significant impact on the timeliness and quality of the 
claims process.  I believe we -- and by we, I mean Congress, the VSOs, 
and VA -- must put this all on the table as we work to improve the 
system.
	I look forward to learning more today and working on this issue 
in the coming year.
	[The statement of Mr. Miller appears on p. 58]
 
	THE CHAIRMAN.  I thank the gentleman for his continued 
	leadership.
	Ms. Herseth, the Ranking Member on Economic Opportunity, is now 
	recognized.
	MS. HERSETH.  Thank you, Mr. Chairman, and to Ranking Member 
Evans for having this important hearing.  And I would like to thank in 
advance all of the witnesses that will be testifying today.
	I look forward to hearing about the Veterans� Benefits 
	Administration�s effort to reduce the backlog of pending claims 
	and the amount of time it takes to process the claims.  And 
	while I understand our focus here today is on the disability 
	claims, I will be posing questions as it relates to pension 
	claims as well.
	I would like to thank the VA for the tremendous work they do on 
behalf of our nation's veterans; however, I do share the concern of 
many of my colleagues regarding the extraordinary amount of time it 
takes to process certain claims and appeals.
	We must ensure our veterans receive the benefits they have 
earned and deserve in a timely manner.  The soldiers returning from 
Iraq and Afghanistan along with service members from previous wars 
deserve the best available service we can provide.
	So, again, I thank you for being here.  Thank you, Mr. Chairman.
 Look forward to hearing the witness testimony and working with you to 
resolve the claims backlog.
	THE CHAIRMAN.  I thank the lady for her leadership.
	Ms. Hooley, do you have an opening statement?
	MS. HOOLEY.  No thank you.
	THE CHAIRMAN.  Ms. Berkley.
	MS. BERKLEY.  Yes.
	THE CHAIRMAN.  You are now recognized.
	MS. BERKLEY.  Thank you, Mr. Chairman.
	It is critically important that we explore this issue from the
 perspective of veterans who have waited years for their VA claims to 
be resolved.
	In fiscal year 2005, the VA received more than 16,000 more 
claims than in fiscal year 2004, yet the number of staff at regional 
offices to process these claims is 7,053 on duty as of September 30, 
2002.
	So, I am particularly concerned that the Reno regional office 
may not have adequate staffing given the large number of veterans 
moving to Nevada.
	In 2000, there were 3,042 claims and 712 appeals pending in 
Reno.  As of September of 2005, there were 3,677 claims and 1,082 
appeals pending in Reno.
	Even though these numbers are shocking to me, it appears from 
the information that I have that Reno is faring better than other 
regional offices in terms of staffing.  However, I am still concerned 
with the wide variation in the number of staff and the appellate 
caseload.  In fact, Reno has 30 more claims per FTE than the office 
with the best ratio of pending claims and appeals, which is Salt Lake 
City.
	My Las Vegas office is currently assisting a Gulf War veteran 
who has numerous medical conditions and has been waiting for a decision
 on his appeal since 1999.  That is the year that I started serving in
 Congress.  For six years, this veteran has been waiting to hear a 
decision.
	However, the national average for appeals decided by the Board 
in fiscal year 2005 was 983 days, over two and a half years.  Many 
claims are remanded by the Board adding even longer to the time veterans 
must wait for a decision.
	Mr. Chairman, I cannot stress enough the importance of 
adequate staffing levels to ensure timely and accurate decisions of VA 
claims.
	And I want to thank you for holding this hearing.  I look 
forward to hearing from the witnesses on this very important subject.  
Thank you.
	THE CHAIRMAN.  Thank you, Ms. Berkley.
	Mr. Stearns, you are recognized for an opening statement.
	MR. STEARNS.  Thank you, Mr. Chairman, and my other colleagues.  
I want to thank you for having this hearing.
	I will tell my colleague, Ms. Berkley, that she would be 
interested to know that it is ironic that the original use of the word 
red tape in the United States began with the Civil War veterans' 
records.  So you can see it goes back that far.
	They were bound in red cloth tape and there was great difficulty 
in accessing them.  And so that led to the current term of red tape, 
going all the way back to the Civil War.
	I think we have progressed quite a bit since then, but obviously 
there remains a lot more red tape and that is why we are having the 
hearing.
	The most time-consuming process would be processing new claims 
and with the VA anticipating more than 206,000 new claims in the year 
2006, we need to consider ways to make the process of developing new 
records more efficient while retaining thoroughness in the claims 
review.
	And, secondly, Mr. Chairman, filing frequent claims or rating 
claims, as they are called, takes an average of about 155 days to 
process.  Some of these claims go to 180 days.  And with the 
anticipated growth in rating claims of three percent to over 725,000 
claims, I suspect that it will be even higher.
	So this represents an incredible administrative burden and
 probably portends even longer delays.  So that is why this hearing 
is so timely.
	And, lastly, I finally would say the appeals process for 
claimants to the Board of Veterans� Appeal is extraordinarily lengthy.
 For example, in 2005, an average processing time of over 820 days at 
regional offices with an additional 160 days of process at the main 
Board of Veterans� Appeal.
	Obviously this means that some veterans are left waiting over 
two and a half years as a result of their appeal.  And this obviously 
is not satisfactory.
	So it is clear that we need streamlining procedures.  I think 
if this Veterans' Affairs Committee can come up with some solution 
here, it would be monumental.  Veterans have suffered under the weight 
of this bureaucracy, this amount of red tape.
	So I thank you, Mr. Chairman, for holding this hearing and I 
look for a solution.
	THE CHAIRMAN.  Thank you very much.
	Dr. Snyder, you are recognized for opening statement.
	MR. SNYDER.  Thank you, Mr. Chairman.  I looked forward to the
 witnesses.
	THE CHAIRMAN.  Thank you very much for your brevity.
	Dr. Jones of South Carolina, not Indiana, Henry.
	Dr. William B. Jones is a retired Air Force colonel who served 
as a chief flight surgeon and orthopedic surgeon with over 3,000 hours 
of flight time.  He is here to discuss his own personal experiences 
with the claims processing system.
	Dr. Jones, I am most appreciative that you would travel here 
from the warmth of South Carolina.  I have read your statement and I am
 familiar with your resume.  You, sir, have had a good life.
	Every day I am meeting extraordinary people and you have had 
quite a life.  You have given a lot to your service of your country in 
two wars.  And for that, we are appreciative and respectful and we are
 anticipating your testimony.
	You are now recognized.

STATEMENT OF WILLIAM B. JONES, UNITED STATES AIR
	FORCE (RETIRED)

	DR. JONES.  Thank you very much, Mr. Chairman.
	Ladies and gentlemen of the House Committee on Veterans� 
Affairs, let me state in the beginning what a privilege it is to be able 
to be here today and to testify before this august body on a very 
memorable day, Pearl Harbor Day.
	I feel that in this endeavor, I am speaking not just for myself 
but for the thousands of veterans who have experienced similar or 
greater frustration and challenges in attempting to deal with the 
Veterans� Administration.
	To no avail, I have spent the last six and a half years in an 
attempt to have the Veterans� Administration recognize my claims, and 
it seems we are now at a point where we are getting ready to begin all 
over again.
	The experience I will outline for you today highlights a system 
that promotes second-class medical care in a bureaucracy that is 
uninformed about military matters, programmed to procrastinate and
 inefficiency and non-caring with whom you cannot communicate.
	Subsequent to finishing orthopedic residency, I returned to 
active duty with the Air Force at Keesler Air Force Base in Biloxi,
 Mississippi, and then spent two years at Hunter Air Force Base in 
Savannah, Georgia.
	Since 1966, I have been practicing orthopedic surgery in 
Greenville, South Carolina.  During these years, I have maintained my
 affiliation with the Air Force.  Tours of active duty, I have served 
in Japan, Alaska, Germany, Spain, Greenham Commons in the UK.  
Additionally, I have spent time in Libya, Korea, Vietnam, and my last 
tour of active duty was at Andrews Air Force Base here in Washington 
and Dhahran Air Base in Saudi Arabia during the first Gulf War.
	I have logged combat time both in Vietnam and the Persian Gulf 
War.  All tolled, this has amounted to 33 years of Air Force service,
 concluding as chief flight surgeon and orthopedic surgeon with over 
3,000 hours of flying time with the rank of colonel.
	Arriving in France in excellent health in 1955 with a 
completely normal physical exam, by 1957, I had developed a pterygium, 
which is an overgrowth of the veins of the eye covering portions of the
 cornea, of each eye, diagnosed to be secondary to irritation of the 
sun and sandstorms in North Africa.
	The worst eye was operated upon not once but twice at the U.S. 
Air Force Hospital in Wiesbaden, Germany in late 1957.  These facts are
 documented in my physical exam records.
	Unfortunately, the growth recurred and over the years, my local
 ophthalmologist has monitored these growths closely.  I have used a 
variety of drops in attempt to control the irritation, which creates an
 itching of the eyes with tearing.  Sometimes blurring of vision 
accompanied by diminished visual acuity occurs with reading or night 
driving.
	The Veterans� Administration had requested exams, which have 
been conducted at a hospital in Columbia, South Carolina, by a resident 
in training on two occasions.  The VA Board has referred to this as no
 evidence of onset during active duty in the right eye, which is 
completely false and contrary to the documents, including in my physical 
exam and all of my records.
	Had the evidence presented been appropriately reviewed and 
accepted, this grossly inaccurate judgment should not have occurred.  
Both eyes experienced simultaneous trauma in the desert and 
simultaneously developed a pterygium.
	Jet engine noise experienced during flight line operations to 
which air crews, including the flight surgeon, are exposed can be 
productive of very serious hazardous noise levels to hearing.  At that 
time, it was not recognized and the measures now in effect to protect 
one from excessive noise were not utilized.
	Also, the seat of the flight deck of the C141 and 124 transport
 aircraft utilized by the flight surgeon has been noted to be in medical
 research studies in more recent times to be excessively hazardous noise
 levels of a high pitch whine with the port inboard engine being the 
cause of this.  This is the seat that I occupied in accumulating in 
excess of 3,000 hours of flying.
	These facts are all corroborated and verified in scientific data
 that I presented at a board hearing.  In the data accumulated for the
 regional office, I presented a great deal of research material, 
pointing out the unhealthy nature of this exposure.  This was from the
 medical research publications of many authors and from medical school
 faculties, textbook authors, and Air Force research labs, especially 
those at Wright-Patterson Air Base in Ohio, all recognized authorities 
in their field.
	Again, the VA evaluators at the Board of Appeals commented upon 
this as evidence of minimal exposure to aircraft jet noise.  Clearly 
this statement was contrary to the research of the material that I 
quoted and presented relating to jet engine noise.  Three thousand 
hours of flight time can hardly be glossed over as minimal exposure.
	The substance of my testimony was not given the weight of an 
expert as prescribed by the regulations and by the Court of Appeals 
based on my status as a physician and a flight surgeon with special
 training and expertise in otology, or hearing problems.
	Data was also presented relating to my evaluation by Dr. Joseph 
C. Farmer, Professor and Chief of Otolaryngology, Department of Surgery,
 Duke University Medical Center.  His summarizing statement of September
 2001 visit was bilateral sensory hearing loss secondary to excessive 
noise exposure during Air Force duty, and I recommend hearing aids.
	The Board hearing officer referred to this as minimal exposure.  
This is a marked contradiction to opinions regarding medical information
 between a judge and a recognized outstanding scientific authority and 
medical professors.
	Flying cargo from Savannah, Georgia and Charleston, South 
Carolina to Vietnam frequently required three days to get there and 
three days to get back home while in the company of bombs, tail fins, 
Agent Orange, and who knows what else.  This was one of the primary 
missions of the 63rd Airlift Wing at Savannah and 437th Airlift Wing 
in Charleston.
	From 1964 to 1975, I developed an enlarged prostate that 
eventually produced urethral stenosis and the inability to void.  
This required a TUR operative procedure of the prostate.
	Since then, the prostate has continued to enlarge with 
multiple surgical biopsies in an attempt to rule out the development 
of a tumor because of an accompanied considerable elevated PSA, which 
is a lab study that is indicative of that.
	This has also been accompanied by several episodes of extensive
 urethral bleeding and, on occasion, requiring hospital admissions to 
control this.
	Now the situation has progress to that of urinary incontinence 
and dysfunction with dribbling, requiring the wearing of absorptive 
devices.  This, you can imagine, is a real problem and bother.
	The last urologic evaluation requested by the VA was performed 
by a very junior general surgical resident in Columbia who told me that 
he did not care about my post exam grossly bloody urine specimen.  As a 
junior general surgical resident, he is unqualified for evaluating the 
complex urinary dysfunction and prostate problem.
	If the VA desires a valid opinion of a problem, they must have 
a valid specialist to evaluate the situation.  This inadequate treatment
 is an insult and something that most veterans resent.
	The medical issue is thought to be most likely due to Agent 
Orange exposure, and I am hopeful that this is not an indication of 
impending prostate cancer development.  Medical literature and 
research studies were also presented to the regional offices and the 
Appeal Board to support this conclusion.
	The comments of the Board was manifest during RC with no 
evidence during ADT, which is also false.  True, the episode of 
urinary retention occurred while in Greenville and not in Vietnam, 
but the enlargement was occurring over the preceding several years, 
which was noted on digital examinations over a time frame when multiple
 periods of active duty were served.
	Now my internist points out with a blood sugar of approximately 
140, he considers me to be a type-2 diabetic.  Exercise and diet have so 
far done very little to accomplish resolution of the problem.  I now
 understand that this has been recognized as a complication of Agent 
Orange exposure, and Congress has passed a resolution relating to such.
 This was published in a recent issue of the DAV magazine.
	While on active duty in Charleston and during Desert Storm, it 
was recognized that my cholesterol and lipids were elevated and 
increasing on routine physical exam and lab studies.  I was placed on
 cholesterol lowering medications in Charleston probably during the 
early 1980s, obtaining my medicine at the Charleston Air Force Base 
pharmacy.
	This has controlled the elevation of these harmful levels to 
some degree as long as I remain on medications, though the VA will not 
provide me with the most recently developed and most effective 
medications prescribed by my internist.
	It seems that veterans were good enough to go to war with the 
best equipment, but not to get the best medication for promotion of 
good health once they get home.
	Because of the elevated cholesterol, I have developed 
considerable plaque formation and narrowing of the carotid arteries. 
These arteries are in the neck on either side.  These are now 
requiring frequent monitoring with ultrasound screening.
	Should these continue to progress, cerebral ischemic episodes 
or strokes are likely.  Dizziness and vertigo with instability are 
provoked by transient and brief episodes of ischemia and risk prone 
surgical intervention is a possible consideration.
	Working with the system for consideration of these medical 
problems beginning at the regional office in the spring of 1999, through 
the Veterans� Board of Appeals and the Court of Appeals, has gotten
 significantly nothing accomplished.
	At the regional office, it is impossible to talk with the 
director or any of the evaluators.  Apparently, this is a hard and fast 
rule.  You present yourself at the office.  Someone is called down from
 upstairs to talk to you, but cannot answer any questions or take down 
any new information.
	It is impossible to find out what is going on or if they have 
the correct or most recent data in your chart.  This recently has been
 improved with the addition of a receptionist who can at least tell you
 if they have the records, but nothing else.
	After a period of six to twelve months, you receive a letter 
that you must reply to or report for an additional physical exam that 
in my case was performed by a surgical resident in training status 
without regard to training in the applicable specialty.
	Finally, a judge was provided in October of 2002 who the 
Disabled American Veterans� representative and I appeared before and 
presented my case.  The judge insisted that all duty -- if I might have
 just a few more minutes to conclude.  Thank you.
	The judge insisted that all duty conducted while a reservist 
was considered inactive duty status.  As most military personnel are 
aware, I tried to explain to her that reservists were called to active
 duty for periods of time from a few days to several months.
	Crews flew all overseas missions, which were numerous, on an
 active duty status, which was a requirement by NATO.  Active duty was
 also required on any mission when possible exposure to hostile fire or
 flying in the combat zone, such as Vietnam and the Persian Gulf, was
 required.
	This information was never accepted as a fact by the judge.  Due
 to the lack of the judge�s understanding of these facts, the nature of 
my medical problem was not addressed and the hearing wound up 
accomplishing nothing.
	I was directed to contact the Air Force Personnel Center at 
Randolph for further confirmation of my facts.  With the lack of 
understanding by the judge of the facts presented, what faith can one
 have in the fairness of the system or accuracy of the judgment?
	When the matter after appeal finally got to the Board of Appeals 
some six months later, I had a very well-prepared slide and document
 representation.  Judge Joy McDonald dismissed this and I was allowed
 only a hurried verbal presentation.
	I had documents and medical research treatise from the 
literature as well as copies of my physical exams supporting my case. 
Again, the medical facts and authoritative research evidence was 
treated with casual disregard.  Judge McDonald did not consider my 
testimony that of an expert as required by regulations and as directed 
by the court.  I do not understand how the judge could ignore the VA
 regulations and the direction of the Court of Appeals.
	As a chief flight surgeon, a physician has special training in
 aerospace medicine, emphasizing ear, eye, and cardiopulmonary 
physiology.  It would appear self-evident that she was dealing with a
 veteran with some medical knowledge.
	The judge also recently requested a cardiologist review my case
 involving the carotid arteries.  Again lacking medical expertise, she
 obviously is not aware of the difference between the coronary artery 
and the carotid artery.
	The coronary arteries are in the heart and the carotid arteries
 are in the head.  A cardiologist is not a physician to make 
determinations on the carotid artery, but should require a neurologist.
  This certainly does not reflect with credit upon the Board nor give 
one a sense of security that they know what they are doing and one can
 be judged correctly and fairly.
	This case was then appealed to the Court of Veterans� Appeal.  
There I had the good fortune of having an attorney representing me who 
pointed out the unfairness of the Board and glaring error on their part
 in not properly considering my testimony.  With his assistance in 
pointing out this mistake, the court referred my case back to the 
Board of Appeals.
	This remand has now taken two and a half years, from March 19th 
of 2003, to October 11th of 2005, for my records to go from the location
 of the Board of Appeals to the Court of Appeals and then back to the 
Board of Appeals, about five blocks across the city of Washington.
	I was at the Board of Appeals� office in D.C. on the 11th of 
October and met with the DAV representative who was most knowledgeable
 and helpful.  He was able to locate my records in the office almost
 immediately.  He pointed out that as a patient over age 75, they 
should expedite my case and mark the records accordingly.
	Feeling that we would be given prompt attention by the Board of
 Appeals as directed by the court, upon returning to Greenville, I 
underwent a reevaluation by my internist of my cholesterol and 
vascular stenosis status.
	I also had a reevaluation by my urologist of my renal 
dysfunction and prostate status, and had copies of these sent to the 
Board.  Here are copies of each one of these reports right now, which 
I understand should be in my records.
	Unfortunately, on 11/23/05, I was informed that the case had 
been referred back to the RO, regional office, for further development
 of data.
	THE CHAIRMAN.  Dr. Jones, you are going to have to speed it 
up, please.  We have three votes pending.
	DR. JONES.  All right.
	THE CHAIRMAN.  Your written statement will be submitted for the
 record.  If you can summarize your conclusion.
	DR. JONES.  Can I just read through the conclusion?
	THE CHAIRMAN.  Yes, sir.
	DR. JONES.  Okay.  Thank you.
	In conclusion, I feel manipulated by a system of bureaucratic
 maneuvers.  As described by my testimony, my case has gone from the 
regional office to the Board of Appeals, to the court over the course 
of six and a half years only to be returned to the regional office.
	I am appealing to you today to hold this system accountable for
 ensuring that veterans who have fought for our freedom have an adequate
 and efficient means of resolving these problems in a timely manner.
	Soldiers, sailors, marines, and airmen in harms way in 
Afghanistan and Iraq and other far-flung parts of the globe and their
 families are enduring a great deal of hardship and grief in various 
areas of conflict.  They have been led to believe that our country will 
stand behind them and take care of them when they return home, many with
 broken bodies and mangled minds, and are not able to care for 
 themselves.
	In conclusion, I would just like to say that I have not received
 any funds from any government agency, federal grant, or contract from 
the government relative to this subject matter and the testimony during
 the current year or previous other years.
	Before departing, I would like to share with you one brief but 
very pointed passage from the literature inscribed on a plaque at Parris
 Island which is very appropriate with the current calls for quitting 
before we finish the job in Iraq.
	War is an ugly thing, but not the ugliest of things.  The decay 
and degraded status of moral and patriotic feelings which thinks that 
nothing is worth war is much worse.  A man who has nothing for which he 
is willing to fight, nothing he cares more about than his own personal 
safety is a miserable creature who has no chance of being free unless 
made and kept so by exertion of better men than himself.
	I thank you for your attention.
	[The statement of William B. Jones appears on p. 68]
 
	THE CHAIRMAN.  Dr. Jones, we have asked you to come here and 
testify because you have had a very unique life.  Graduate of the 
Citadel, and Duke University for your medical degree and your 
residency.  You have had an extraordinary career and you are in a 
unique place to give testimony and answer the members� questions 
because you also have these experiences with your military service. 
And you understand your body.
	And so we are interested in that frustration and the challenges 
you have as you go through an appellate process, a claims process, when 
people who are looking at them may not be as qualified.
	The Committee will stand at recess.  We have three votes.
	[Recess.]
 
	THE CHAIRMAN.  The Committee will come back to order.
	Dr. Jones, would you please come back to the table.  I 
apologize to you.  Sometimes when we have votes and hearings are 
extended, my colleagues get pulled in many different directions.  We 
had a good attendance and then the votes disturbed that.
	I want to thank you for coming and giving your testimony.  Just 
before we broke, I tried to share with you one of the reasons we asked 
you to come here is because you are providing a voice for many veterans
 who do not have your medical expertise.
	How challenging it must be for you to have an understanding 
regarding your human physiology, and make a claim also based on your
 military experiences and then to have that claim sent to someone of 
whom you have no idea about their background, expertise, and begin to
 make judgments on that.
	Will you share some of that with me, what are your thoughts 
about having gone through that?
	DR. JONES.  Well, you get certainly provoked when you find that 
your claim is being referred back down to the regional office to 
evaluate what is printed or the examiner calls the coronary arteries
 when, in effect, the arteries in question are the carotid, one being 
in the chest, the other in the head.
	And it makes you wonder if they are that uninformed about the 
human body or they do not seek some assistance to bring them up to 
speed or how fair are they going to really be able to judge your 
claim.  And that is most frustrating.
	And then to be sent to the hospital for a detailed and 
comprehensive urologic examination and you find that the examiner is a 
very junior surgical resident who is in training.
	And really most general surgical programs, there is very little
 emphasis on urology.  It is certainly a separate and apart specialty 
of the field.  So they are really not in any position to form an 
adequate judgment.
	And, of course, I am afraid in so many cases a veteran who is 
not medically oriented might not realize that he is not really being 
offered a fair and adequate evaluation and winds up with an opinion 
from somebody who is not capable really of evaluating the situation.
	THE CHAIRMAN.  When you filed your disability claim in February
 of 2000, a decision was then made on August 31 of 2000.  Was anybody 
from VA in touch with you during that time period? 
	DR. JONES.  I�m sorry.
	THE CHAIRMAN.  You submitted your claim and then a decision was 
made.  Were they in touch with you during that process and, if so, what
 communication took place?
	DR. JONES.  Very little.  I really initially -- and I realize
 those dates are in the records there -- but initially I started this 
process in the spring of �99.  And, yes, I would periodically have a 
request for more information on this, that, or the other, or a request 
to come down for another hearing evaluation and so forth.
	And during that period of time that you were talking about, 
perhaps I was communicated with maybe three times.
	THE CHAIRMAN.  Did you have bi-directional communication or was
 it, "here is what I want," you send it and you do not talk to anybody?
	DR. JONES.  No.  That was it.  They give you an 800 number, but
 you would call it and you never could get anybody on the phone to talk
 to.
	And you felt like in many cases if you could just talk to the 
person evaluating your claim, you could clear up some misunderstandings 
which might involve referring it back and forth to two or three different
 people in their agency.  And if you could talk with them just to answer 
their questions, you feel like it would certainly be a big help to moving
 the claim along.
	And for that reason, I really think that in many cases if the VA 
could employ veterans or retirees who had service in the system and 
really understand that all people on reserve category or National Guard
 category are not always on reserve training duty.  They certainly in 
many cases are called to active duty as they are quite frequently now. 
 And I think that is going to be more the case in the future.  And when 
they are on active duty and called up, they are placed on active duty and
 should be treated just as anyone else on active duty.
	THE CHAIRMAN.  Earlier you used the words "fair evaluation."  Often
 that is defined subjectively.
	As you examine your own experience going through this process and 
how long it has taken you, what are your recommendations to us about
 objectivity and how we make this a more fair process in evaluating 
disability claims?
	DR. JONES.  Well, that generally, I think, is a case where it 
involves someone evaluating the situation and making the decision.  For
 instance, how in the world could they categorize one eye as being 
acquired as a result of military service and not the other?  Both eyes 
were two inches apart and what trauma to one eye can do, the other did.
	And I think the mechanism there is to try to get people more 
familiar with the military system and I think just more attentiveness on 
the part of the person evaluating the claim should rectify such things 
as that.  And such things as confusing the coronary and carotid artery, 
I think there, they just need to try to educate themselves a little bit 
better as to what those were.
	But they certainly need to have some emphasis on trying to push 
a claim along because in my case, six and a half years to start out and 
now it is going back down to the regional office again.  You wonder if 
it is ever going to reach a final conclusion.
	THE CHAIRMAN.  It is a challenging process whereby, you know, is 
one eye considered one, or are both eyes considered together?  
	DR. JONES.  The wind was blowing primarily from the left side and 
that is why you got all the sun and sand in that eye.
	But I realize the Veterans� Administration is an expensive 
program and certainly with these days, you like to conserve as much of
 the government funds as you can.
	But at the same time, if we are going to be involved in these 
conflicts and having people get their bodies bent up and mangled, we 
need to fully stand behind them so that when they come back home, they 
will be hopefully productive citizens again and at least adequately 
taken care of.
	THE CHAIRMAN.  May I surmise then from your statement that 
training of evaluators is key?  That we should examine that in greater 
detail?
	DR. JONES.  I think that would be an excellent policy.
	THE CHAIRMAN.  I have some further questions, but at this 
moment, I will yield.
	Mr. Udall.
	MR. UDALL.  Thank you, Mr. Chairman, and I apologize for not 
being here earlier.  I had another commitment.  I move to put my 
statement in the record.
	THE CHAIRMAN.  No objection.
	[The statement of Tom Udall appears at p. 63]
 
	MR. UDALL.  Dr. Jones, thank you for your testimony.   
	I hear the same story from veterans in my district whenever we 
meet with them.  It appears that many of the measures used to measure
 productivity are not designed from the perspective of veterans who 
spend years waiting for hearings and decisions.
	Do you believe that the system would work better if only board
 certified physicians conducted compensation and pension examinations?
	DR. JONES.  Yes.  I very definitely feel that that would speed 
the process up.
	MR. UDALL.  Why do you think that?
	DR. JONES.  Well, I think they would be more confident in making
 a conclusive or definite decision when they perform an evaluation as 
opposed to a resident in training.  He is a little uncertain and 
unsecure in his position.  And with the responsibility of making such 
an important decision, he may be hesitant just like in the case of the
 young man who evaluated me.
	He had done his evaluation and examination and he really did 
not want to get involved with the fact that there is blood in the 
urine after the evaluation.  So I think more qualified people in 
performing these medical examinations would certainly be of benefit.
	MR. UDALL.  Should the VA pay to obtain private medical records
 for disability claims as the Social Security Administration does?
	DR. JONES.  I do not think really it should require that.  I
 mean, most doctors� offices formerly would have all the records on 
pieces of paper which could be sent through a duplicating machine or 
fax now.  And now the big emphasis to switch over from paper records 
to paperless records.
	Most offices are going to a computer program now where you just
 dictate into the computer.  So it should only be a matter of pressing 
a few buttons to send the records to the VA.  So I do not think that 
they should really in fairness charge them for that.
	MR. UDALL.  We hope that is how it works.
	We appreciate, Dr. Jones, your testimony very much and hope 
that your efforts here today help many other veterans.
	Thank you, Mr. Chairman.  Yield back.
	DR. JONES.  Thank you.
	THE CHAIRMAN.  Dr. Jones, I understand your appeal at the Board 
has been expedited based on your age.
	Has anyone at BVA given you any indication as to when a 
decision could be made?
	DR. JONES.  No.  As a matter of fact, the Board had the remand 
clearly marked for it to be expedited.  But then I got a couple of 
letters from the agency that facilitates the appeal process and it 
has a return address of Veterans� Administration but had no telephone 
number, no address or anything on there.
	But they indicated in their correspondence that they had a 
heavy workload and it would be addressed in due time, but did not 
indicate that they were aware of or going to be in a position to in 
any manner expedite the process in spite of the fact I have got ten
 evaluations already of a recent nature from the urologist as well 
as an internist.
	And more recently, I guess the last evaluation I had of my 
eyes, they made colored photographs of the pterygiums and those should 
now be incorporated in the record.
	So really I do not see where there should be a need for any 
more referral evaluations.  I would be happy to participate in those 
if they need them, but the chart and records should be in a situation 
now so they could make an informed decision with what is there.
	THE CHAIRMAN.  You testified that you believe that this 
process is programmed to procrastinate.  Why?
	DR. JONES.  Well, I do not think there is any urgency shown 
by any of the people that get involved to push the process along.  For 
it to take months to go through the regional office, it must sit in 
some in basket or out basket for a considerable period of time.  And I 
do not think anybody really is concerned about that and nothing seems 
to be a stimulus to move it along.
	And that may be one of the reasons that you cannot communicate 
with them, just the fact, I guess, it would take some of their time in
 communicating.  But at the same time, it might very well facilitate 
the process more than it would consume their time in talking with the 
clients.
	THE CHAIRMAN.  Do you have any further recommendations for us 
on how to change the process?
	DR. JONES.  Well, perhaps a bit more education of those people
	involved in terms of medical terms and some diseases and how 
	they expect 
it to turn out and so forth might be helpful.  And if more attention 
could be directed to getting people with previous background in the 
field of medicine and the military would be helpful.
	THE CHAIRMAN.  You also used the word "attitude" in your 
testimony.  It is pretty important.  It can move mountains.  And you 
believe that they need an attitude change?  This is sort of your 
synopsis of having gone through all this so long?
	DR. JONES.  Well, I think so, because when a veteran goes to 
the regional office, he is not really going to talk to anybody.  The 
first time there, he fills out the application.  He has a little 
assistance with that.
	But any other time that he is there, perhaps to bring 
information of a new physical exam that has been done or perhaps to 
just check on the progress of the case, the attitude is, you know, we 
are all too busy.  We cannot spend any time talking with you.
	And if you call up, you cannot really get anybody on the 
phone.  You talk to an answering machine.  And you are very 
frustrated.  What can I do to help the situation.  Well, you cannot 
do anything.  You cannot even talk to anybody about it.  I think that 
is a bad attitude.
	I think anything involving medicine -- and I think in these
 evaluations, it does involve medicine -- that a caring attitude does 
a lot to reassure the patient or the person involved that he is really
 talking with someone who is concerned about his situation and
 attempting to try to move it forward to a successful, favorable 
conclusion.
	THE CHAIRMAN.  Well, at the end of your statement, you were 
hopeful that your presence here, while it may not eliminate your 
frustration, that you hope that it would be helpful.  And I would 
submit, sir, that it is.
	DR. JONES.  Well, thank you.
	THE CHAIRMAN.  Congress has chartered a Disability Commission 
and its charter has great latitude in its recommendations to Congress.
  We are most hopeful that we can come up with a claims system that 
treats people the way they deserve to be treated.
	I mean, they did not ask for much in the service of their 
country and we in turn as a country owe them more than a great deal 
of gratitude.  It is to try to make them as whole as possible and to 
give them every opportunity to live full and complete lives.  And we 
seek to do that.   
	I appreciate you being here; your testimony is valuable and 
important.  Thank you, Dr. Jones.
	DR. JONES.  Thank you very much.  I believe I read just the 
other day about the Commission.  I think this was in an article from 
an Air Force magazine that it has taken them much longer than 
anticipated, though, to come up with a recommendation, has it not, to 
2007 or 2008 before they feel like they will be finished?
	THE CHAIRMAN.  Well, you are right on the edge.  I have met 
with the Chairman and he has expressed some concerns.  And we are 
going to address those issues.  That charter that we have given him, 
Dr. Jones, is very broad.
	And we want to give this Commission support.  The individuals 
who are serving on this Commission are highly decorated -- several are 
Medal of Honor winners.  There are criteria with regard to their 
military status, but they are also very unique individuals in their 
own right.
	We have given them a pretty expansive charter.  Not often in
 Washington, D.C., do we move in bold strokes.  We are hopeful that 
they are going to come to us with some pretty significant 
recommendations on how to improve this process.
	DR. JONES.  Well, that is most encouraging, and certainly 
they need the time to do a thorough job.
	THE CHAIRMAN.  I think so too.
	Thank you, Dr. Jones, for your testimony.
	DR. JONES.  Thank you very much.
	THE CHAIRMAN.  You are now excused.
	DR. JONES.  My privilege.
	THE CHAIRMAN.  If the second panel will please come forward.  
We are pleased to have Mr. Ronald R. Aument, the Deputy Under Secretary
 for Benefits from the Veterans Benefits Administration, and the 
Honorable James Terry, Chairman of the Board of Veterans� Appeals,
 with us today as our second panel.
	Mr. Augment serves as second in command at the Veterans 
Benefits Administration, the branch of the Department of Veterans 
Affairs responsible for administering benefits programs for veterans,
 including education, home loan guaranty, compensation, pension, 
vocational rehabilitation, employment, and insurance.
	Mr. James P. Terry was nominated to serve as Chairman of the 
Board of Veterans� Appeals by President Bush on April 26, 2005.  He 
was confirmed by the Senate on July 29, 2005.
	A former Marine Corps infantry officer in Vietnam, his final 
four years of active duty were as the Marine Corps judge advocate, 
serving as legal counsel to the Joint Chiefs of Staff, and he retired 
as colonel in 1995.
	Mr. Terry�s military awards included the Bronze Star Medal, 
the Purple Heart, Defense Superior Service Medal, Legion of Merit, 
et cetera.  I should say et al.
	Did you forget the Good Conduct Medal in there?
	Mr. Aument, will you please begin.

STATEMENTS OF RONALD R. AUMENT, DEPUTY UNDER SEC-
	RETARY FOR BENEFITS, VETERANS BENEFITS ADMINIS-
	TRATION; AND JAMES P. TERRY, CHAIRMAN, BOARD OF
	VETERANS� APPEALS

STATEMENT OF RONALD R. AUMENT

	MR. AUMENT.  Thank you, Mr. Chairman, and members of the 
Committee.  It is my pleasure to be here today to discuss the 
Disability Compensation Program.
	The Veterans Benefits Administration, VBA, is responsible 
for administering a wide range of benefits and services for veterans, 
their families, and their survivors.  The heart of our mission is the
 Disability Compensation Program.
	In 2005, we produced over 763,000 disability determinations.  
We also performed more than two million decision actions of all types 
to address new claims and to maintain those already on the rolls.
	Additionally, we handled over 6.3 million phone calls, 
conducted more than a million interviews, briefed more than 330,000 
service members, and conducted nearly 70,000 hours of outreach.
	Today I will discuss the challenges we face in providing 
timely, accurate, and consistent determinations on veterans� claims 
for disability compensation.
	These challenges include the growth of the disability claims 
workload, the increasingly complex nature of the claims processing 
workload, the rise in appellate processing, and the continuing need 
to produce accurate benefit determinations.
	I will also discuss some of the actions we are taking to 
improve claims processing.  We view these efforts as opportunities to
 provide more timely and accurate disability compensation determinations
 for veterans.
	The number of veterans filing initial disability compensation 
claims and claims for increased benefits has increased every year since
 fiscal year 2000.  Disability claims from veterans returning from 
Operations Iraqi Freedom and Enduring Freedom, as well as veterans 
from earlier periods of war, have increased from 578,000 in fiscal 
year 2000 to more than 788,000 in fiscal year 2005.  This increase 
represents more than 200,000 claims or 36 percent over the 2000 base 
year.   
	The increase in claims receipts is not the only change affecting
 the claims processing environment.  The greater number of disabilities
 veterans now claim, the increasing complexity of the disabilities 
being claimed, and changes in law and processes pose additional 
challenges to the claims processing workload.  The trend towards 
increasingly complex and difficult to rate claims is expected to 
continue.
	A significant portion of VBA�s workload comes from the appeals 
of regional office decisions, remands by the Board of Veterans� Appeals
 and the courts, and from account maintenance activities for 
beneficiaries already receiving benefits.  As overall claim 
determinations increase, so do appellate and nonrating related 
workloads.
	The compelling requirement to produce accurate benefit 
decisions represents both a challenge and an opportunity.  VBA has
 established an aggressive and comprehensive program of quality 
assurance and oversight to assess compliance with VBA claims 
processing policy and procedures, and to assure consistent application.
	VBA is engaged in numerous initiatives aimed at better managing 
the disability claims workload and improving benefits processing.  The 
efforts include changes to the organization and structure of the 
Veteran Service Center operations, the delivery of training for 
claims processors, the consolidation of specialized operations, and 
the redistribution of the rating workload.
	A product of the VA Claims Processing Task Force was the 
	implementation of the Claims Processing Improvement or CPI 
	model.  CPI 
was implemented in 2002 and established a consistent organizational 
structure and work processes across all regional offices.
	The changing workload and workforce have necessitated a review 
of the model to outline the most effective method of organizing work 
and resources to maximize performance.
	During fiscal year 2006, we will conduct a high level review of 
CPI and identify modifications that will further augment efficiencies 
in claims processing.
	VBA has deployed new training tools and centralized training 
programs that support accurate and consistent decision making.  New 
hires receive comprehensive training and a consistent foundation in 
claims processing principles through a national centralized training 
program.  And local training is provided thereafter utilizing the 
standard curriculum.
	Standardized computer-based training tools have been developed 
and training letters and satellite broadcasts are provided to the field
 on the proper approach to rating complex issues.
	We are currently developing a mandatory cycle of training for
 all C&P business line staff consisting of an 80-hour curriculum 
annually.
	The consolidation of specialized processing operations for 
certain types of claims has been implemented to provide better and 
more consistent decisions.  Some of our efforts include the 
establishment of the Pension Maintenance Centers, the Tiger Team, the 
Appeals Management Center, and the Casualty Assistant Unit.
	Most recently, VBA has consolidated the rating aspects of our 
Benefits Delivery at Discharge initiatives, which will bring greater
 consistency on decisions on claims filed by newly-separated veterans.
	Additionally, we are exploring the centralization of all 
	pension adjudication to the Pension Maintenance Centers.
	Through these initiatives, VBA is prepared to address the 
challenges facing our organization and improve claims processing.  We 
will continue to assess our policies, processes, and approaches to take
 advantage of improvement opportunities and to ensure we are achieving 
the desired performance outcomes.
	Mr. Chairman, this concludes my testimony.  I greatly 
appreciate being here today and look forward to answering your 
questions.
	[The statement of Ronald R. Aument appears on p. 74]

	THE CHAIRMAN.  Thank you very much.
	Mr. Terry, you are now recognized.

STATEMENT OF JAMES P. TERRY

	MR. TERRY.  Thank you, Mr. Chairman, and good afternoon.  
Good afternoon, Mr. Udall.  And thank you for the opportunity to 
discuss the operations of the Board of Veterans� Appeals with you, 
the members of the Committee, and your staff.
	When the Board last presented testimony before the 
Subcommittee on Disability Assistance and Memorial Affairs on May 5th 
of this year, we contrasted our performance with that of past years, 
notably when we appeared before the Committee in February of 1994 and 
June of 1998.
	This comparison continues, sir, to be instructive in 
demonstrating where we are heading and how we will meet the challenges 
that the future may bring.
	In fiscal year 1994, the Board issued about 22,000 decisions.  
Our pending caseload stood at 47,000 and was on its way to 60,000 cases.
  Our measure of timeliness then used, average response time, was 781 
days.  By fiscal year 1998, we had significantly improved our timeliness
 and productivity.
	With 483 FTE, we issued 38,886 decisions, held 4,875 hearings, 
and our appeals resolution time, the time from the date a veteran files 
a Notice of Disagreement until he or she receives a final decision on 
appeal either at the Board or in the field, was 686 days.
	In fiscal year 2005, this past year, the Board issued 34,175 
decisions and conducted 8,576 hearings, a substantial increase in 
hearings from 1998.
	Appeals resolution time stood at 622 days.  Our cycle time, 
the time that it actually takes the Board to issue a decision, 
excluding the time the case is with his veteran service organization, 
was 104 days.  It was 159 days if you included the time the VSO had the
 case.
	Significantly, we accomplished these results with 434 authorized 
FTE or 49 fewer FTE than we had in 1998 and 58 fewer than we had in 1997.
  Despite our efforts, we continue to receive more appeals than we are
 deciding.
	Case receipts at the Board for fiscal year 2005 were 41,816 and 
the number pending at the end of fiscal year 2005 stood at 37,539.  That
 is 19,900 in backlog, 10,930 in working inventory, and a number of 
appeals in the field on their way to the Board.
	Our most significant challenge for the future is how to eliminate
 the growing backlog within available resources.
	Mr. Chairman, we are fortunate to have received much help in 
	achieving our success this past year and in future years as a 
	result of the unqualified support that this Committee and your 
	Senate colleagues have provided.
	And certainly we are mindful of the assistance of the veteran 
	service organizations which represent about 85 percent of our 
	appellants.
	We are also mindful of the strong support from VA�s leadership 
	and certainly the Board of Veterans� Appeals law judges and our 
	support staff.
	Two of the most significant and persistent challenges, sir, we 
	face are eliminating avoidable remands and increasing our 
	productivity to contain and reduce the appeals backlog.
	In regard to remands, we know that certainly veterans want 
	timely and correct decisions on claims for benefits.  For the 
	Board to do that and to improve our performance, we must have 
	all evidence necessary to decide the claim and show that all 
	necessary due process has been provided.  If the record does not
	meet these requirements and the benefits sought cannot be 
	granted, then a remand for further development is necessary.
	Remands, of course, lengthen the time of appeal.  One remand, 
	for example, adds about a year to the process.  Remands also 
	divert resources from processing other claims and appeals.  And
	we are mindful that about 75 percent of the cases remanded are 
	returned to the Board, so we have to see them twice and this 
	doubles our workload.
	Hence, eliminating avoidable remands is a goal that will provide 
	better service to veterans and their families and ultimately
	help to diminish the growing backlog.
	We are working with VBA, the Office of General Counsel, and the 
	Veterans Health Administration to identify and track the root 
	causes of remands, provide training, ultimately to eliminate 
	these avoidable remands.  In this regard, our training efforts
	have been considerable.
	We have had several direct training sessions during the past 
	year for all our VLJs and staff counsel on aspects of remand 
	avoidance.  We have held joint training sessions with the 
	Veterans Benefit Administration, including a video broadcast on
	avoidable remands and on evidence development.   
	We conducted numerous sessions on a variety of medical and legal 
	subjects within our jurisdiction and are planning new 
	interdepartmental training initiatives, all designed to reduce 
	remands and improve quality.
	In addition, we are working with VHA and VBA on the CPEP.  That
	is the Compensation and Pension Examination Project which, by 
	improving the quality of VA compensation examinations, will 
	ameliorate a major cause of remands.
	We think these results are encouraging.  We have a long way to 
	go.  But in the past year, our remand rate has dropped to 38.6 
	percent as compared to 56.8 percent in fiscal year 2004.  So far
	this year in fiscal year 2006, the first two months, the remand 
	rate stands at 32 percent.
	Now, if nothing had been done, certainly our backlog was 
	projected to grow to unacceptable levels.  And although we have 
	made many improvements, sir, we have a long way to go.
	Within existing resources, through incentives and sound 
	management, we will continue to improve by doing a number of 
	things.
	First, we will eliminate, as I mentioned, avoidable remands.
	Second, we will strengthen our intra-agency partnerships.  Our 
	joint training efforts with VBA, the Office of General Counsel, 
	and the Veterans� Health Administration will improve decision 
	quality and reduce these remands.
	We have asked our judges and counsel in their preparation to 
	write shorter, clearer, and more concise decisions.  We are 
	training our veterans law judges and counsel to write shorter 
	and more concise decisions so that we can get more productivity
	out of each of them.
	We are utilizing employee incentives and mentoring and training
	programs.  And these programs certainly are designed to increase
	productivity and decision quality.
	And we are making judicious use of overtime in our shop.  We 
	will use overtime within existing resources to enhance 
	productivity.
	We are also increasing the use of paralegals to do those things
	that some of our attorneys are doing now to ensure that they are
	freed up for work that is absolutely necessary to the Board.
	We are also providing improved on-line legal research tools and
	an analytical framework to aid timely and correct decision 
	production.
	We believe these measures will work to reduce the backlog and 
	shorten the time it takes for a veteran to receive a fair, 
	well-reasoned Board decision.  This reduction in time is 
	important and it is even more significant in light of the fact 
	that 61.4 percent of the decisions issued in fiscal year 2005
	were final decisions as opposed to 58.7 percent of the 
	decisions in fiscal year 1998.
	While our decision quality has modestly improved to 89 percent
	in fiscal year 2005, the complexity that comes from drafting 
	more final decisions, addressing the merits of the claim as 
	opposed to remands for more development, is significant.  
	Notably, the Board�s own timeliness, our cycle time, stands at
	a little over three months.
	I wish to assure you that we will continue to work together 
	with our partners in and outside the department to develop new
	and creative solutions to the challenges we face in order to 
	fulfill our statutory mission to hold hearings and provide 
	timely, high-quality decisions to our nation�s veterans and 
	their families.
	I look forward to answering any of your questions.
	[The statement of James P. Terry appears on p. 86]
 
	THE CHAIRMAN.  Thank you very much, Mr. Terry, for your 
	testimony.
	Secretary Aument, what is the time frame for addressing the 
	quality of your ratings, the accuracy of the ratings, and the 
	accountability at the regional office level?
	MR. AUMENT.  Would you repeat the question, Mr. Chairman.
	THE CHAIRMAN.  What is your time frame for addressing these 
	issues on quality of the ratings, the accuracy of the ratings,
	and the accountability at the regional office level?
	MR. AUMENT.  I believe our time is immediate, Mr. Chairman.  We 
	have established quality performance standards for each of our
	directors and it is one of the driving forces of judging 
	station performance, whether or not they are capable of hitting
	the challenging quality targets that we put out there for them.
	THE CHAIRMAN.  Well, you gentlemen were in here when the first
	panel testified.  And Dr. Jones� testimony is very similar to 
	that which I have heard from others going through this process.
	Over the years, veterans have expressed that there have been -- 
	they just want to be treated well.  I mean, they already gave 
	for their country.  They recognize that something is not right 
	with their health.  They might be in an economic plight when 
	they are making the claim.  And how they get treated in that 
	process by their own country is pretty important.
	There are so many things that the VA does right that when you do 
	things wrong like this, you should not be surprised at all when 
	someone of Dr. Jones� esteem says this is all a matter of
	attitude.  Not all, but, you know, it is pretty important.
	This issue about quality.  My opening statement was based on 
	numbers that you gave at the Subcommittee hearing, and you gave
	numbers.  And pretty soon everybody is talking about all these 
	big numbers and then it is a quantity push.
	As I listened to Dr. Jones� testimony, it is about quality. 
	Here is a doctor who knows what happened to his body.  He gets 
	evaluated by someone who is not making right medical decisions.
	It would be pretty challenging, would it not, Mr. Secretary?
	MR. AUMENT.  Indeed it is, Mr. Chairman.  And I was struck by 
	Dr. Jones� testimony as well.  It troubles me when anyone comes
	away from our system feeling as though they have been treated 
	unfairly and that they perceive that there is an attitude 
	problem.
	I also heard Dr. Jones saying how he thought it could be made 
	better and that the fact that we need to have more veterans and 
	people who have the same experiences that Dr. Jones has gone 
	through involved in the process.
	You know, I am proud to say that over half of the employees in
	our service centers are indeed veterans and among the recent
	hires that we have made is over 60 percent are veterans.
	I was also struck by Dr. Jones� testimony in that it was very 
	illustrative of just how complex this system has actually 
	become.  If it is difficult for an educated and seasoned 
	individual like Dr. Jones to navigate through the system, we 
	just know how difficult it is for veterans who do not have that
	same level of experience.  It is very challenging for us,
	Mr. Chairman.
	THE CHAIRMAN.  Complexities create inherent limitations, do 
	they not?
	MR. AUMENT.  Indeed they do.
	THE CHAIRMAN.  What would they be?
	MR. AUMENT.  The complexity imposed again demands that we pay 
	more attention to each and every claim that we produce.  There
	are many forms of complexity.
	For example, the number of issues that are involved in an 
	individual claim.  Many of the claims that we are seeing from 
	recently discharged service members come through the Benefits
	Delivery at Discharge Program.  We have been seeing typically 
	-- and it is somewhat anecdotal, the data -- but we have been 
	seeing these with an average of ten or more issues per claim.
	And that places an enormous burden on those who are actually 
	trying to develop those claims.  It poses not only an issue 
	for the Veterans Benefits Administration to develop those 
	claims, but those typically translate into different types of
	medical exams that have to be separately addressed.
	So complexity is an enormous challenge for us.
	THE CHAIRMAN.  How about you, Chairman Terry?
	MR. TERRY.  I feel exactly the same way.  I find that the case 
	that Dr. Jones described to be one of very great concern for 
	us.
	In his particular case, he had five different major issues, a 
	hearing issue and a bilateral issue that was quickly taken care 
	of.  But he had other issues that were not properly developed 
	and had to be returned for their development, one involving a 
	very significant prostate issue.
	And it is that type of thing that it is very, very important 
	that we get right.  And while I am distressed by what he 
	described because he described the situation where we did not
	get it right and -- 
	THE CHAIRMAN.  Getting the stuff right the first time saves a 
	lot of anxiety, a lot of work, man hours.
	MR. TERRY.  I know that the judge that heard his case, 
	Joy McDonald, who is the daughter of Admiral McDonald, who is 
	probably someone the doctor knows, is greatly concerned about 
	ensuring that we get it right.  And that is why she sent it back 
	so that there would be sufficient evidence so she could give a 
	fair hearing on his problem.
	And while I regret that it took longer than any of us would have 
	hoped or expected, we can only hope that we can do better in the 
	future.
	I have been on board now about four months and I have been 
	looking at each of the things that we do well and those that we
	do not do as well as we should in the Board.  And when I see a
	case like Dr. Jones, my heart goes out because I served a long 
	time myself, and I know that those individuals in the Marine 
	Corps who served with me and who were not given the kind of 
	service we would all hope they would get when they came into our
	system should have been treated well.  And in my view, we have 
	not treated Dr. Jones as well as he should have expected.  And
	we are going to try to do better.
	THE CHAIRMAN.  Are there doctors on staff at the regional
	offices, both your regional offices and at the Board? 
	MR. AUMENT.  We have none, Mr. Chairman.  Incidentally, we 
	employ a handful of doctors that are working in the Compensation
	and Pension Service to provide some professional guidance and 
	direction within the Compensation and Pension Service.  But at a
	typical regional office, you will not find a doctor, a physician.
	THE CHAIRMAN.  Those are here in D.C., the advisors?
	MR. AUMENT.  They are either here in D.C. or out-stationed, but 
	they are connected to our central office component, yes.
	THE CHAIRMAN.  Who do they advise?
	MR. AUMENT.  They advise the Director of Compensation and Pension
	Service in the development of regulation changes.  They work 
	together in developing some of the requirements for medical 
	exams, those types of advisory activities.
	THE CHAIRMAN.  Chairman Terry, do you have any -- 
	MR. TERRY.  Whenever an individual is being seen for a specific 
	issue that they have brought forward, of course our medical 
	centers are available and our veterans are referred to the 
	medical centers for their evaluation and for an examination 
	which addresses each specific concern they might have.
	It is our hope that we have the kind of expertise that can 
	render the kind of decisions which allow us to look fairly at 
	a specific issue or a specific problem and render a decision 
	which is fair.
	As Dr. Jones described, apparently his experience was such that 
	the person or persons who examined him were not in his view
	qualified to do so.  I do not have that information before me, 
	but I will certainly look into it, I assure you.
	THE CHAIRMAN.  I have one more question, Mr. Udall, and then I
	will yield to you.
	We look at this from a Congressional standpoint as we do our
	oversight of the executive function.  Sometimes it could even 
	be simply, and say, well, if you have this backlog and you have
	these kind of problems, do we either need to throw more money
	at it or more people or both.  We often do that.
	You pick any agency, your department, for example.  We have 
	done that over the years, even on our budgetary processes on 
	this Committee, do we increase your FTE or not, or what do we
	give you in your budget?  Do we add back in what you took away?
	So in your testimony, you say since 2000, you have had a 
	36 percent increase in your claims, but have you increased your
	staffing, your FTE at the same time?
	MR. AUMENT.  We have not increased staffing in absolute terms,
	Mr. Chairman.  But, I believe, part of the challenge to us as 
	managers and leaders in the organization is to make sure that
	we are using the resources that you provide us as wisely as
	possible.
	We have directed over the course of that time interval more
	staffing to the direct work done by the people at the regional
	office working in our staffing centers.  In some cases, we have 
	done this by reducing management overhead staff and, in some 
	cases, trying to balance the staffing that is applied to some 
	of the other business lines that VBA is responsible for 
	administering.
	But I agree with you that there is no simple answer by just 
	throwing money at the problem.  If you were to tell me today to
	go out and hire an additional thousand staff throughout the 
	system, we would not see results that are going to immediately
	change things around because, again, we have to have competent,
	skilled, trained staff in the right positions.
	And I think the key for us is making sure that we provide them 
	the right training, the right tools, and provide the right 
	oversight on the system to make sure that things are being done 
	uniformly and accurately across the system.
	THE CHAIRMAN.  Chairman Terry, when we submit our budgetary 
	estimates, adding additional, for example, on FTE, it is 
	dependent on the appropriators following suit.   
	Would that help you?  Is that something we should be looking a
	t?
	MR. TERRY.  More resources are helpful to every organization.  
	There is no question about that.  We are looking at the many 
	efficiencies we can utilize this year to accomplish the mission 
	within our budget that has been provided by the administration.
	Certainly we are mindful that every department, every 
	organization needs more resources.  And we are also mindful, 
	and I especially have been in government 38 years, sir, I know 
	that when our secretary advocates strongly before OMB and OMB 
	gives us what they give us, that is what happens.  And we will 
	work within that budget.  We will do the very best we can, sir. 
	We are mindful that it takes people to manage the system.
	We are also mindful, though, that eliminating avoidable remands,
	better training for our people, working more closely with VBA, 
	working very closely with the Veterans Health Administration, 
	and setting up better programs to examine our folks with
	protocols that actually are consistent each time so that, for
	example, in PTSD, we have the type of examination that allows
	us to be consistent.
	These are the kinds of things that will make a great difference
	for us.  And we will certainly do that.  I commit to you that
	we are.  We are doing that right as we speak.
	THE CHAIRMAN.  As you formulated your budget, did you make a 
	request for increases in your FTE?
	MR. TERRY.  Sir, I can just tell you that our authorization for 
	2007 is going to be 444, we believe.  We are at 434 right now.  
	We are certainly appreciative of whatever support we receive. 
	And we are certainly aware that the administration is supporting
	us to the extent certainly that they can with the other 
	priorities we have in this government.
	We are mindful of our responsibilities.  We are trying to write 
	shorter and more concise decisions.  We are trying to get our 
	people to do more with what we have and we will continue to do 
	that.
	THE CHAIRMAN.  Secretary Aument.
	MR. AUMENT.  As far as 2007, as the Chairman knows right now, 
	we are still in the predecisional phases of the 2007 budget 
	process.  I am not really at liberty to discuss what we have 
	requested either from OMB or from the administration.
	I can tell you that we have committed this year to trying to 
	make sure that we honestly and accurately tell the decision 
	makers on the budget what we believe a certain level of resources
	is going to buy in the way of performance.  And we have shown an 
	array of options as to what performance to expect given the 
	resource levels that are ultimately approved.
	Frankly, we would probably be happy.  We believe that we can put
	a considerable dent into the backlog and into the current pending
	volume of claims if we sustain ourselves at the resource level
	that we have been given for the 2006 budget year.
	THE CHAIRMAN.  Let me try it this way.  Do you anticipate an 
	increase in your FTE or a decrease in your FTE in 2007?
	MR. AUMENT.  I don�t know what to anticipate, Mr. Chairman.  As 
	I said before, the -- 
	THE CHAIRMAN.  All right.  It is Christmas.  What are you 
	looking for in your Christmas package?
	MR. AUMENT.  Well, we would always use some additional staff 
	under the tree under those scenarios, Mr. Chairman.
	THE CHAIRMAN.  Getting comfort with that.
	MR. UDALL.
	MR. UDALL.  Thank you, Mr. Chairman.  That is one way to 
	approach it, I guess.
	Secretary Aument, you point out in your testimony that the 
	workload for original claims has increased by 25 percent over 
	the last two years and reopened claims increased by two to 
	three percent each year.
	Staffing has not increased as the Chairman has just pointed 
	out.  It has not increased by the same amount.  And as of
	September 30th, the VA had 173 fewer employees in regional
	offices to handle compensation and pension claims than on
	September 30th, 2002.
	The VA Inspector General reported earlier this year that 
	regional office staff felt that they were not adequately 
	staffed to provide accurate and timely decisions on claims.
	Unfortunately, the recently approved budget does not include
	a recommendation for an increase to meet the need.
	Isn�t the rising claims and appellate backlog due in part to
	insufficient staffing to make quality decisions?  Since the
	average number of claims per case has increased, should VA 
	revise its production standards?
	MR. AUMENT.  I see no reason at this point to revise our 
	production standards.  It is certainly our expectation, and 
	I would assume it is the expectation of this Committee as 
	well, that we expect our staff to become more productive, 
	that I think it is a reasonable expectation that we provide 
	training and tools to make staff gain productivity each and
	every year.
	With the 2006 budget that the Congress has given us, we are 
	going to be able to put between 300 and 350 more staff into 
	the compensation and pension claims process throughout the
	system in our regional offices.
	So we are confident that we are going to be able to increase
	the staffing levels in 2006.  And we believe that with those
	additional resources we are going to make some real inroads 
	on the backlog.
	MR. UDALL.  So your answer to the question on rising claims
	and appellate backlog due in part to insufficient staffing, 
	you would say yes or no on that?
	MR. AUMENT.  Well, I would say right now that the rising 
	workload speaks for itself, that the workload from 2003 to 
	2004 increased by five percent, from 2004 to 2005 by an 
	additional three percent.
	We do not have the best way of looking at that and making 
	future predictions, but it is certainly our hope and 
	expectation that that workload is going to level off.
	But, again, we have more resources at our disposal this year. 
	We believe that we can make some inroads on the backlog.
	MR. UDALL.  I am also very concerned about the ratio of 
	employees at regional offices to the pending workload.  It 
	appears that some offices, such as Salt Lake City, have 
	twice as many employees as other offices, such as New York 
	City, to handle a comparable caseload.
	Is the VBA�s policy of starving poor performing offices and
	feeding better performing offices contributing to the 
	degradation of services in some parts of the country?
	MR. AUMENT.  I do not believe so, Congressman.  You are 
	absolutely correct that we have been utilizing a resource
	model over the last several years that tends to push 
	resources out to those offices that have proved to be most
	productive in using those resources.  And quite often that has
	resulted in some downsizing of some of the offices in our larger
	urban areas.
	We have tried to counterbalance that impact because we do believe
	that is the best use of those resources, sending them where they
	are likely to be most productive.  We have tried to 
	counterbalance that by making sure that we make workload
	adjustments as well and move workload around so as not to 
	penalize the veterans in those offices� jurisdiction.  But we do
	believe it makes the most sense to send the resources where they
	are going to be best used.
	MR. UDALL.  Chairman Terry, veterans who requested a hearing 
	before the Board waited an average of 607 days in 2005.  I find 
	that waiting time unconscionable.  We need to look at the time 
	line from the perspective of veterans like Dr. Jones who are 
	waiting for a decision.
	Mr. Chairman, I would like to include a copy of the elapsed 
	processing time for fiscal year 2005 into the record, two 
	sheets here.
	Chairman Terry, are you familiar with this document?
	MR. TERRY.  I am, sir.
	THE CHAIRMAN.  All right.  This will be entered into the record.
	No objection.
	MR. UDALL.  Thank you.
	[The attachment appears on p. 65]

	MR. UDALL.  And during a Subcommittee hearing earlier this year, 
	Acting Chairman Garvin testified that the Board had adequate 
	staff to do its job.  Now it appears that veterans who seek 
	Travel Board hearings or video hearings may be waiting almost 
	two years for a hearing.  For decisions made last year for 
	claims from the New York regional office, veterans waited over
	five years for a Board decision.
	How many additional staff and travel funding would be needed to
	provide veterans with a hearing within three months after the
	claim is certified to the Board as ready?
	MR. TERRY.  Thank you for the question, Mr. Udall.
	Let me tell you how the Travel Board system works and it will 
	help explain what we are trying to do to ameliorate the problem.
	As soon as a case is prepared and in VACOLS, which is our 
	tracking system, we learn that this individual is awaiting a 
	hearing, we arrange for a Travel Board to go to one of our 
	57 ROs.  We have 106 Travel Boards scheduled for this coming 
	year.  On Travel Boards, each judge on that Board will hear 
	43 cases a week.
	And so consequently, if you have two judges or three judges, it
	will be 43 times three or times two, whatever it is, but we will
	make allowances for additional Travel Boards as the cases become
	ready.  As soon as a case is posted in our VACOLS system as
	being ready, we arrange for a Travel Board to take care of that 
	particular docket.
	So while I agree that the system takes far too long from the 
	standpoint of our Board when a docket is ready to go and when 
	the VSOs have gotten their clients ready and have provided the 
	representation of the clients and are ready to go, then that 
	case is listed as ready on the docket.  When we have 43 cases 
	ready, that provides a docket for one judge to go out and handle
	those cases.
	We do it on a continuing basis, sir.  I recognize those times 
	are extremely long.
	In the preparation of a case in our system, which is open until
	the final decision is made, any new evidence can come in at any 
	time.  This causes some delays and raises new issues.  It may 
	require new examination.  It may require that we reinvestigate
	or get additional documents or data from the different medical 
	facilities where the individual was previously treated or it may 
	involve records from years before.
	Dr. Jones testified that he first applied in 1999.  This is an 
	individual who came into the service in 1950.  We are dealing 
	with records that are extremely old.  We are trying to get 
	everything we can to make decisions which really are helpful to 
	the individual and that represent the complete database which 
	represents his case.
	I admit when we look at these figures, we are distressed as well 
	and we are trying to shorten them to the extent we can.
	From the Board�s perspective, when we get a docket that is ready 
	to go, we get a team out there to hear it.  And we are very 
	concerned about that.
	MR. UDALL.  Now, you have given a good explanation in terms of
	how you handle it.  But what I am trying to get at is if you 
	have years that people are waiting, veterans are waiting, can 
	you give me any idea today how many additional staff and travel
	funding would be needed to provide veterans with a hearing
	within three months after the claim is certified?  Rather than
	waiting five years as the example I gave or the two years, in 
	three months, do you have any idea?
	MR. TERRY.  Sir, I can only tell you that when a docket is ready 
	to go, we have the people available now to get out and hear 
	those dockets and provide a hearing for these individuals.  And
	we will continue to do that.
	As I pointed out to you earlier, sir, we are part of an 
	administration and the administration produces a budget each 
	year.  And we are determined to do within the resources that 
	we have the very best job for each of our veterans that we can.
	And I make that commitment to you as Chairman of the Board.
	MR. UDALL.  I do not understand why it is taking five years -- 
	MR. TERRY.  I don�t believe -- 
	MR. UDALL.   -- in the New York regional office.
	MR. TERRY.  In most cases, sir, it is not.  I can tell you that.
	It really is not.
	For example, in Dr. Jones� case, he filed his claim in late 1999. 
	As I recall, he had a hearing that he requested after the rating 
	decision was made and after the Notice of Disagreement was 
	filed.  He had a hearing, I believe, in 2002, but I do not 
	believe that was too long after the Form 9 was filed.  So we 
	will have to take a look.
	MR. UDALL.  Well, I believe the record that has been put into 
	the file shows the significant amount of time that is occurring.
	And I still do not understand it.
	But I yield back, Mr. Chairman.
	THE CHAIRMAN.  Ms. Herseth, you are recognized.
	MS. HERSETH.  Thank you, Mr. Chairman.  I apologize to you and 
	to the witnesses for not being here earlier.  We had a markup 
	in another Committee on which I sit.  I know our witnesses are 
	familiar with how that goes as are other Members of the 
	Committee.
	And I look forward to reviewing your responses to the questions 
	that my colleagues I am sure posed here in the last hour or so
	addressing the issues, some of which were raised by Dr. Jones, 
	and trying to find the way that we work together to alleviate 
	the backlog, make this more timely for our veterans.
	And I know that the hearing is focused today on disability 
	claims, but if I might, Mr. Aument, talk a little bit about 
	the pensions.
	As you know, the pension services have been consolidated from 
	the 57 regional offices to three of the Pension Maintenance 
	Centers.
	Now, I am starting to hear complaints from my constituents that
	the quality of the work at the PMCs is not nearly as good as 
	the work done at the regional office.  Part of this trend that
	we have seen today, that we have seen in the past, that the 
	further away you get from the local level, the less responsible
	perhaps the service that is being provided.
	The turnaround for awarding claims at the regional office was
	30 to 60 days and the turnaround for awarding claims at the 
	PMCs in St. Paul is more than six months.
	In addition, my constituents are too often asked to resend 
	pension claim information to the PMC or, worse yet, the
	original correspondence is simply lost.  Now, these are 
	problems that occurred much less frequently when the work 
	was done by the regional office.
	So I am wondering first why have the pension services been 
	consolidated and is there a benefit to the consolidation of 
	the pension services besides reducing cost, if that indeed 
	has actually been realized, and have you heard any similar
	complaints from other parts of the country?
	MR. AUMENT.  Congresswoman, I understand that some of the 
	veterans in your state have voiced those concerns.  I have 
	seen some of the letter traffic on that and I do understand
	that there are concerns.
	Sioux Falls happens to be a very good office.  And we find 
	that we have some of our best offices out in the heartlands 
	of the country where they have some of the most stable 
	workforces.  Those are some of the best performing offices in
	the country.
	Now, having said that, I do believe that the consolidation of 
	our pension operations is the right thing to do.  The intention 
	here is to achieve both qualitative and quantitative benefits 
	of productivity and improved quality.
	Our pension claims are some of the most complex claims and some
	of the most error-prone claims in our system.  And some of the 
	expected benefits that we believe that we are realizing from 
	the consolidation of these pension efforts will accrue not only
	to the pension program, but to the disability compensation 
	program as well.
	This type of consolidation effort relieves us of some of the 
	training that we would otherwise have to conduct for new staff 
	coming into the system at the 57 different offices.
	So we believe that it is the right thing to do in order to
	make the best use of the resources.
	MS. HERSETH.  But if I might, what are some of the benefits that
	you think have been realized or will be realized with 
	consolidation other than saving cost?
	MR. AUMENT.  We believe it is going to be improving quality as 
	well at a national level.
	MS. HERSETH.  And you mentioned that you saw some of the letter
	traffic coming from my constituents who it seems are being 
	penalized because they have got great folks out of the regional
	office who have done a great job for them.
	And you just responded to Mr. Udall�s questions about getting 
	resources to those areas that are efficiently using those 
	resources.  And I know that there are some differences there.
	Have you seen letter traffic in other parts of the country, in 
	other districts where it suggests that veterans themselves are 
	realizing the benefits from the consolidation?
	MR. AUMENT.  Not really.  This concern with the pension
	consolidation is largely confined to the Sioux Falls area from
	what we have been hearing.
	MS. HERSETH.  But my question is, have you seen letter traffic
	suggesting that veterans feel in other parts of the country 
	that they are being better served by the consolidation?
	MR. AUMENT.  Well, we rarely see that type of traffic where 
	people are writing to us -- 
	MS. HERSETH.  Thanking for -- 
	MR. AUMENT.  Yes.
	MS. HERSETH.  I have seen the correspondence thanking them for 
	the timely handling -- 
	MR. AUMENT.  What I am saying pertains to the pension 
	maintenance operations, which is the part of the pension 
	program that today has been consolidated.
	MS. HERSETH.  Okay.  And you have not seen any other letter 
	traffic in any -- 
	MR. AUMENT.  No, I have not.
	MS. HERSETH.   -- other district like that that you have seen 
	in South Dakota with folks that used to get timely service, but
	now are realizing significant delays?
	MR. AUMENT.  No, we have not, Congresswoman.
	MS. HERSETH.  Okay.  Thank you.
	I yield back, Mr. Chairman.
	THE CHAIRMAN.  I am going to turn to the Social Security 
	Administration for a second.
	All of the members here in the House and in the Senate have
	caseworkers who deal with our constituents on Social Security
	Disability claims.  We do everything we are supposed to do to 
	help them in that process.  The Social Security Administration 
	stays in touch with our offices via computer, lets them know 
	how the claim is going, and what is happening.  You do not do
	that with any of our offices.
	Would you consider taking a look at what the Social Security 
	Administration does with regard to how they interct with all
	of our congressional and senatorial offices to help our staff 
	as they also assist these veterans on appeals?  Would you 
	please consider looking at that?
	MR. AUMENT.  Absolutely, Mr. Chairman.  We certainly will. 
	We will take that one on.
	THE CHAIRMAN.  All right.  Thank you.
	Over the last ten years, the department has spent at least 
	600 million on VetsNet.  What measurable outcomes have resulted
	from this investment, what other IT initiatives are underway at 
	VBA, and at what projected cost?
	MR. AUMENT.  Okay.  The $600 million figure having been spent 
	on VetsNet covers quite a bit of territory, Mr. Chairman.  It 
	includes not only money spent on the development of the 
	application for Vets Net, but the purchase of desk top computers
	throughout the system, e-mail systems, local area networks, 
	actually putting any of the equipment it needed in place to 
	facilitate day-to-day operations.
	It includes the amounts that have been spent in support of the
	Loan Guarantee Program, which is probably one of our most
	highly evolved technological business lines in VBA.  So it 
	covers quite a bit of territory.
	The VetsNet, if I could focus more particularly on the 
	application of VetsNet, I will talk about that just for a 
	moment.
	Really the heart and core of the VetsNet endeavor is to get
	ourselves off of the old Legacy payment system and better 
	poise ourselves to become more modern in the future and adopt
	some of the practices such as Social Security and some other
	organizations have today.
	There are four primary applications that constitute the 
	VetsNet suite of applications for the disability compensation
	and pension process.
	The first is the application used in support of development 
	activities called Map D.  That is currently in use at every
	office throughout the country, 57 regional offices.
	The second application component is the RBA 2000 application. 
	That supports the rating activity.  That as well is in use at 
	every office around the system.
	The last two components that are needed to get off of the 
	Legacy system are the award component where they actually put
	the award made by the raters into place and the back office 
	finance and accounting system component.  Those are still in
	some stage of development, but are being tested at both our 
	Lincoln and our Nashville offices.
	We believe that there have been good benefits that have accrued
	from the first two components and we expect to see benefits 
	from the third.  Productivity benefits are expected, for 
	example, from the award piece.
	Right now, as you are probably aware, many of our awards include
	some type of a retroactive component where a veteran has filed 
	a claim and the effective date may go back to some years in the
	past.  It often requires some very complex calculations that 
	can take an experienced authorizer some hours to compute.
	The VetsNet Award component will compute that automatically and
	it is going to be considerably more accurate as well.  It is 
	going to eliminate opportunities for errors.
	We have some built-in security features that will go along with 
	Award that are going to be putting some computerized controls in
	place for large awards of over $25,000, that we believe are 
	going to be reducing our vulnerability to any type of fraud.
	And we believe that there have been productivity achievements 
	associated with the first two applications as well.
	The RBA 2000 application is going to give us a wealth of data 
	that we can use to learn more about the nature of our claims,
	help us discover where we most need training, and discover 
	errors.  So we believe there are considerable benefits 
	associated with it.
	THE CHAIRMAN.  Let me ask a question of Chairman Terry with
	regard to this new evidence issue.
	You know, when you think about how we practice law out there
	and if the appellate courts on appeal, something comes up, 
	obviously they remand it back for a new trial if the new 
	evidence is substantial and material to the findings.
	We are going through an administrative process and if there is
	one piece of paper missing, you have got to remand the whole 
	thing back.
	Have you ever considered whether or not we should change that
	at all or these are judgments that we can go ahead and make at
	the appellate level or -- 
	MR. TERRY.  We are trying very hard to do just what you have 
	indicated.  We have a waiver process which we put in place 
	through a Chairman�s memorandum earlier this year  -- 
	THE CHAIRMAN.  Good.
	MR. TERRY.   -- which basically provides us the opportunity to
	go to the veteran and say your case is in hearing.  You 
	provided this new information.  Would you let us handle it
	and consider it during the litigation of the case rather than
	sending it back to the agency of original jurisdiction.
	Normally under our regulations, unless waived, it would have 
	had to have gone back and start the process all over again, 
	having the regional office take another look at it.
	This gives the veteran an opportunity to give us the chance 
	to consider it at the appellate level and handle a claim.  
	It is a very successful program.
	THE CHAIRMAN.  That is great.
	MR. TERRY.  And it is just one way we are looking at the 
	program and the process to try to make it more streamlined
	and give the veteran a better shake.
	THE CHAIRMAN.  Can you share with us a copy of that decision
	of what you have made?
	MR. TERRY.  I will provide a copy of that memorandum, sir.
	[The information is found on p. 167]

	THE CHAIRMAN.  Yes.  I would like to see that.
	What impact has that had on your remand rate?
	MR. TERRY.  I think it certainly has helped.  As you know, we
	went down from last year 56.8 percent to 36 or -- I think it 
	is 38 percent last year.  And the first two months of this 
	year, we are down to 32.1 percent, sir.  So we are looking at
	a lot of different things to help the process. This is one of
	those.
	THE CHAIRMAN.  All right.  Congratulations, Chairman.  That is
	very good.
	Any other questions of the panel?
	[No response.]
 
	THE CHAIRMAN.  All right.  Gentlemen, thank you very much for 
	your testimony.
	The second panel is now excused.
 
	THE CHAIRMAN.  Mr. Secretary, Mr. Chairman, I know you are 
	really anxious to leave and get out of here.  Would you mind 
	listening to the oral testimony of the VSOs and then take off?
	Would that be okay?  Our next panel is comprised of veteran 
	service organizations.  They have spent thousands of hours out 
	there helping a lot of our veterans.  And if you hear something 
	that might be helpful to you -- okay?  I appreciate you staying.
	If panel three will please come to the table.
	Representing The American Legion today is Mr. Donald Mooney.  
	Mr. Mooney is the Assistant Director for Resource Development,
	Veterans� Affairs and Rehabilitation Commission at The American 
	Legion.
	Prior to his current position, he served as the 9th appeals 
	representative team leader at the Board of Veterans� Appeals in
	Washington, D.C.
	Mr. Mooney entered the United States Air Force in 1967 and as a 
	result of his military service, he received the Air Force
	Commendation Medal, the Air Force Good Conduct Medal,
	Presidential Unit Citation, Outstanding Unit Ribbon, National
	Defense Service Ribbon, and the Vietnam Service Medal.   
	Representing AMVETS today is Mr. James Doran, the National 
	Service Director of AMVETS.  He joined AMVETS as the National
	Service Director on March 10, 2003.  As the National Service 
	Director, he oversees the operation of 44 AMVETS service 
	offices located in 30 states and the District of Columbia.
	His staff of 61 provides assistance to veterans in filing 
	claims for benefits with the Department of Veterans Affairs. 
	He also coordinates with many state departments, Veterans 
	Affairs, and county veterans service offices nationally.
	He served in the United States Navy from January 1963 to 
	1983.  His military awards include the Navy Commendation 
	Medal for Heroism, the Combat Action Ribbon, the Navy 
	Achievement Medal, and a number of other awards and decorations.
	Representing the Disabled American Veterans is Mr. Brian 
	Lawrence, the Assistant National Legislative Director.  
	Mr. Lawrence is a service-connected disabled veteran of the 
	Persian Gulf War.  He was appointed the Assistant National
	Legislative Director of the million-plus Disabled American 
	Veterans in August of 2000.  He is employed at the DAV
	National Service and Legislative Headquarters in 
	Washington, D.C.
	We also have Mr. Blake Ortner representing the Paralyzed 
	Veterans of America.  Mr. Ortner is the Associate Legislative 
	Director of PVA�s national office in Washington, D.C.
	A native of Moreland, Minnesota, he attended the University
	of Minnesota in Minneapolis on an Army Reserve Officer 
	Training Corps Scholarship.  He graduated in 1983 with a 
	degree in International Relations, commissioned as a regular
	Army infantry second lieutenant.
	While stationed at Ft. Lewis, Washington, he served with the 
	9th Infantry Division in the Army�s elite Second Ranger 
	Battalion.  He left active duty in September of 1987, and 
	continues his military service as an infantry lieutenant 
	colonel in the Virginia National Guard.
	In 2001, he served a nine-month deployment as part of S4-10
	peace keeping mission to Bosnia and Slavenia.  He returned in
	July of 2005 after a year of commanding the Infantry Battalion 
	Task Force in Afghanistan.
	Finally, representing the Veterans of Foreign Wars we have
	Mr. Kinderman, the Deputy Director of the National Legislative
	Service.  Mr. Kinderman served in the United States Army during
	the Vietnam War, including 13 months with the 25th Infantry 
	Division in Vietnam.
	Well, I thought there was going to be some more, but that is it.
	MR. KINDERMAN.  That is enough, sir.
	THE CHAIRMAN.  Is that enough?  I am sure there has got to be a 
	lot more good stuff there.
	I appreciate the Deputy Secretary and Chairman for staying.  
	They are going to be here for your testimony.  And then, 
	gentlemen, if you have to leave, I understand.  But they 
	represent organizations who have put in a lot of time and effort
	on behalf of a lot of our comrades.  And I appreciate you being
	here to listen to their testimony.
	With that, Mr. Lawrence, you are now recognized.

STATEMENTS OF BRIAN E. LAWRENCE, ASSISTANT NATION-
	AL LEGISLATIVE DIRECTOR, DISABLED AMERICAN 
	VETERANS; DONALD L. MOONEY, ASSISTANT DIRECTOR
	FOR RESOURCE DEVELOPMENT, VETERANS� AFFAIRS AND
	REHABILITATION COMMISSION, THE AMERICAN LEGION;
	JAMES DORAN, NATIONAL SERVICE DIRECTOR, AMVETS;
	BLAKE ORTNER, ASSOCIATE LEGISLATIVE DIRECTOR,
	PARALYZED VETERANS OF AMERICA; AND QUENTIN 
	KINDERMAN, DEPUTY DIRECTOR, NATIONAL LEGISLA-
	TIVE SERVICE, VETERANS OF FOREIGN WARS

STATEMENT OF BRIAN E. LAWRENCE

	MR. LAWRENCE.  Thank you, sir.
	Mr. Chairman, and members of the Committee, on behalf of the 
	1.3 million members of the DAV, thank you for the opportunity to 
	submit our views on the challenges and opportunities facing the 
	VA disability claims processing system.
	As mentioned in my written statement, my perspective of the 
	claims system is based on my tenure as a DAV NSO and also as a
	medical retired veteran with a service-connected claim.
	I saw a news article this morning that I thought was somewhat 
	analogous to one of the problems I described in my testimony. 
	The news story was about an emergency call to 911 that led to 
	a tragedy.  The tragedy occurred because the 911 operator took
	it upon herself to decide that the situation the caller 
	described was not a true emergency.  She refused to notify the
	police and a woman was murdered as a result of the operator�s 
	complacency.
	Though the operator probably deals with dozens of calls in 
	which circumstances have been overblown, personal judgment 
	should not override protocol.  As frustrating and irresponsible 
	as useless calls to 911 may be, the greater outrage occurs when
	a legitimate call is disregarded by a bureaucrat who acts as a
	self-appointed judge.
	There are some VA employees who are also self-appointed judges. 
	In some instances, I knew of situations where VA adjudicators 
	would deliberately deny disability compensation claims, both 
	increases and the establishment of service connection, based on
	their misperceptions rather than the evidence available or the 
	controlling regulations.
	Never once was I aware of such an individual losing his or her 
	job despite repeated blatant denials in the face of qualifying
	evidence.  Rather, justice usually had to be sought at the next 
	higher level, the BVA.
	Though the claims backlog does not exist solely because of it, 
	elimination of this type of attitude would eliminate a lot of 
	duplicated work.  This can be accomplished through training and
	accountability.
	Competent quality reviewers should review a random sample of 
	work from each adjudicator and remedial training should be imposed
	when deficiencies are revealed.
	VA leadership must enforce accountability through a willingness to
	replace individuals who are not succeeding.
	An effective training program requires knowledgeable and 
	experienced instructors who have the time necessary to devote to
	their jobs.
	Accomplishing these objectives will require adequate resources 
	which are essential to an efficient and effective benefits 
	delivery system.  Adequate resources will allow the VA to 
	develop a training program to increase proficiency of existing 
	adjudicators and bolster staff to levels that allow for a 
	reasonable amount of time to thoroughly develop and deliberate
	on compensation claims.
	The VA cannot overcome the problems it is facing without these 
	adequate resources.  Therefore, sir, we urge the Committee to
	consider the recommendations and funding levels presented in 
	the Independent Budget.
	Mr. Chairman, this is the gist of my written statement, and I
	will be happy to answer any questions that are more specific.
	THE CHAIRMAN.  Mr. Lawrence, do you offer your written statement
	for the record?
	MR. LAWRENCE.  Pardon me?
	THE CHAIRMAN.  Do you offer your written statement for the record?
	MR. LAWRENCE.  Yes, sir.
	THE CHAIRMAN.  Hearing no objections, so entered.
	[The statement of Brian E. Lawrence appears on p. 102]
 
	THE CHAIRMAN.  Mr. Mooney.
	Actually, all of you, if you have written statements to submit,
	do all of you?
	Everyone answers in the affirmative.  Therefore, your written
	statement will be offered into the record.  And you may present a
	five-minute oral summary.
	Mr. Mooney, you are now recognized.

STATEMENT OF DONALD L. MOONEY

	MR. MOONEY.  Mr. Chairman, thank you for this opportunity to 
	present The American Legion�s views on the challenges and 
	opportunities facing VA disability claims processing in 2006.
	VA has the responsibility to ensure the welfare of the nation�s 
	veterans, their families, and survivors.  Providing quality 
	decisions in a timely manner will continue to be one of VA�s 
	most daunting challenges in 2006 and beyond.
	I also have a litany of statistics which I will forego for the 
	sake of brevity.  But of the 763,000 determinations in fiscal
	year 2005, VA is expecting three and four percent increases in 
	2006 and 2007 respectively, amounting to 826,000 claims in 2006 
	and 842,000 in 2007.  If this trend continues, and there is no
	reason to believe it won�t given the ongoing war on terror, VBA 
	will be swamped by over a million claims by fiscal year 2009.
	It is clear to The American Legion that current staffing and 
	proficiency levels, VA backlog and processing time will only
	worsen.
	Additionally, following much media attention, a report by VA�s
	Inspector General, a provision in the "Enacted Military Quality
	of Life and Veterans� Affairs Appropriations Act for 2006, 
	requires VA to conduct outreach to veterans in states with
	average annual disability compensation payments at less than 
	$7,300.
	While we agree that it was necessary to cure inequities in the
	system, this, too, will add to VBA�s backlog.
	Whether simple or complex, VA regional offices are expected to 
	consistently develop and adjudicate claims in a fair, legally 
	proper, and timely manner.  The challenges that BVA faces in 
	2006 in meeting these workloads are in staffing levels, 
	training, and quality of decision making.
	The adequacy of regional office staffing has as much to do 
	with the actual number of personnel as it does with the 
	training and competency of the staff.
	VBA has lost much of its institutional knowledge base over the
	past four years because of the retirement of many of its 
	30 plus year employees.  As a result, staffing in most regional
	offices is now made up largely of trainees or employees with 
	less than five years of experience.
	Concern over adequate staffing in VBA was addressed by the VA 
	IG in the same report, specifically recommending in view of 
	growing demand the need for quality and timely decisions and the
	ongoing training requirements that VBA reevaluate human resources
	and ensure that their field organization is adequately staffed 
	and equipped.
	Additionally, the Chairman of the Veterans� Disability Benefits
	Commission questioned the Under Secretary for Benefits about the
	adequacy of current staffing levels at a meeting this past July.
	The Under Secretary conceded that the number of claims� workers
	has decreased over the past three years.
	The American Legion believes it is an extreme disservice to
	veterans, not to mention unrealistic, to expect VA to continue
	to process an ever-increasing workload while maintaining quality
	and timeliness with fewer staff.
	Over the past few years, The American Legion�s quality review 
	team has visited almost 40 VA regional offices to assess overall
	operations, including reviews of recently adjudicated claims 
	where The American Legion held Power of Attorney.
	Our site visits found that frequently there are too few 
	supervisors or inexperienced supervisors to provide trainees
	mentoring, training, and quality assurance.  At many stations,
	ongoing training for new hires as well as more experienced staff
	was suspended to focus maximum effort on production.
	That being said, we are encouraged by the Under Secretary�s 
	public commitment to improve the training of VBA personnel, and
	we look forward to improvements in this area in 2006.
	For years, The American Legion has stated that the imperative 
	in VA claims processing has been to process as many claims as 
	possible as quickly as possible.  The IG acknowledged that 
	because the VA often does not take the time to obtain all 
	relevant evidence, there is a good chance that these claims are 
	not properly developed, leading to premature adjudications, 
	improper denials, under-evaluation of disabilities, and
	inconsistent decisions.
	The pressure on VA leadership to reduce a growing claims backlog
	and provide timely decision is often at odds with efforts to 
	maintain or improve the quality of decision.  Setting realistic
	production goals that take into consideration the number of 
	cases and increasing complexity must be accomplished if VA is 
	ever to reach a balance between production and quality.
	That concludes my statement, Mr. Chairman.  I will be glad to 
	answer any questions.
	[The statement of Donald L. Mooney appears on p. 91]
 
	THE CHAIRMAN.  Thank you, Mr. Mooney.
	Mr. Doran.

STATEMENT OF JAMES W. DORAN

	MR. DORAN.  Mr. Chairman, Mr. Udall, on behalf of AMVETS National
	Commander, Edward W. Kemp, I would like to thank you for the 
	opportunity to present testimony to this Committee.
	For almost 60 years, AMVETS has represented the needs of the 
	American veteran, working with this Committee and the 
	Department of Veterans� Affairs to ensure that those needs 
	are met.
	It is my unfortunate duty to report to you that in our opinion,
	those needs are not being met, not by the Department of 
	Veterans� Affairs, not by the Congress, and not by this 
	Committee.
	As of 26 November, the Veterans� Benefits Administration reports
	that 117,766 claims have been pending for more than 180 days.  
	That is almost 20,000 more claims pending than at this same time 
	last year.
	There are, of course, reasons for that:  Budgets that cannot 
	stretch to meet the needs of the VBA; experienced employees 
	retiring and being replaced by novices requiring years of 
	training; and the Global War on Terrorism.
	However, none of these reasons are pertinent.  General of the 
	Army Bradley summed it up in 1947 when he said -- we are dealing
	with veterans, not procedures, with their problems, not ours. 
	That has not changed.
	The Department of Veterans� Affairs is tasked with dealing with
	the problems our veterans have, physical, emotional, financial,
	and educational.  Everything else is secondary in nature.
	The key issues that you are interested in are the challenges 
	and the opportunities facing disabilities claims processing.  
	The challenge is simple.  How can VA adequately process 
	disability claims with the funds they have been given?  The 
	answer is, they cannot.
	If you, the members of Congress having oversight over the 
	department, cannot get them the funding they need to fully staff 
	all VBA benefits offices and regional offices, then VA will 
	never be able to do its job to the best of its ability.
	If VBA is going to reduce the claims backlog to zero, if VBA is 
	going to have to process over three-quarters of a million 
	claims per year, if VBA is going to deal with veterans and their
	problems, you need to do your part.  You need to get them the 
	funds they need to hire additional full-time employees.
	The opportunities are heavily keyed into the challenges.  The 
	funding for and creation of additional full-time equivalent
	employees for the VBA should provide additional employment 
	opportunities for our veterans.
	Unfortunately, as of the most recent data published on the VA 
	web site, only 27 percent of all DVA employees are veterans 
	preference eligible.  That is not something to be proud of.  
	This is the United States Department of Veteran Affairs.  The
	majority of all of their employees should be veteran preference
	eligible.
	An even more important issue within the veteran community hinges
	on partisan politics and trust.  No one asked us which party we 
	belonged to when you sent us off to war.  Playing partisan 
	politics with our lives now is inexcusable.
	This Committee needs to go on the floor with one face, not split 
	into party factions.  As members of the House, you represent 
	Congressional districts and political parties.  As members of 
	this Committee, you represent all American veterans.
	On Veteran�s Day, the Secretary announced that a pending review
	of 72,000 approved disability claims for PTSD had been cancelled.
	This announcement was highly publicized and joyfully received by
	the veteran community.
	On 27 November, we found out that less than a week later, the 
	Secretary requested that the Institute of Medicine conduct a
	review of posttraumatic stress disorder diagnosis and treatment 
	within the DVA.
	Is the IOM a recognized authority on posttraumatic stress 
	disorder?  Looking at the members of their Committee that may
	be assigned this task, I find there are no military physicians,
	no DVA physicians, no individuals with any apparent background
	in combat-related PTSD.
	One member of the Committee did serve on the task force that
	wrote the DSM-IV.  However, he specialized in eating disorders.
	A 27-member task force worked five years to develop the DSM-IV
	in a process that involved more than 1,000 psychiatrists and
	other mental health professionals.  Now Secretary Nicholson 
	wants IOM to reexamine and repudiate the validity of this 
	publication.  Why?
	A second Committee will review, among other items, the 
	compensation practices for PTSD and the criteria for 
	establishing the severity of PTSD as published in the VA 
	Schedule for Rating Disabilities.  Again, I ask why?  Isn�t 
	this part of the mandate you have given the Veterans� 
	Disability Benefits Commission?
	If the goal is to find ways to reduce the amount of money 
	spent on veterans� disability compensation, all you need to 
	do is ask us.  I can tell you without reservation that the
	only way to effectively reduce that expense is to stop 
	committing our young men and women to combat.
	In the meantime, you as members of the Congress of the United
	States have a constitutional duty to raise and support armies,
	to provide and maintain a Navy, to provide for calling out 
	the militia.  We, the veterans you created, are a part of 
	that cost, and the bill is fast becoming past due.
	That concludes my statement, Mr. Chairman.
	[The statement of James W. Doran appears on p. 99]
	
	The Chairman.  Mr. Ortner, you are recognized.

STATEMENT OF BLAKE C. ORTNER

	MR. ORTNER.  Mr. Buyer, Mr. Udall, on behalf of Paralyzed
	Veterans of America, I would like to thank you for the
	opportunity to testify today on the challenges and opportunities
	facing the Department of Veterans� Affairs as it processes 
	disability claims in 2006.
	PVA maintains a Veterans� Benefits Department with offices 
	across the country which provides assistance and representation
	at no cost to veterans seeking health care and benefits for
	which they are eligible.
	Our service officers undergo extensive training, including 
	on-the-job training, prior to being released to assist PVA 
	members, their families, and other veterans.
	To properly address the issues today, we contacted our national
	service officers and asked for comments.  Their responses focus
	on four themes.  Timeliness and accuracy of ratings decisions 
	and training and accountability of VA claims adjudication 
	personnel.  These are not new issues and we find it 
	disconcerting that the same problems are continuing.
	The most important concern voiced by our service officers was
	accuracy of ratings decisions.  This problem is not new.
	Following the VA Claims Processing Task Force recommendations
	in October 2001, VA placed added emphasis on reducing the 
	claims backlog.
	PVA believes that the accuracy of decisions was negatively 
	impacted by the race to cut the pending workload.  Our NSO�s 
	stated that VA is concentrating more on the backlog and not on
	the quality of the decisions.
	Furthermore, the VA continues to recognize effectiveness of
	regional offices through the workload that it completes and not 
	through quality decisions.  Some service officers believe that it
	is less punishable to make a wrong denial than to make a wrong 
	award of benefits.  And this is unacceptable.
	However, this is not a universal theme.  Some of our officers 
	explained their offices seemed to be operating slower than 
	others because of an effort to ensure that a veteran receives
	more accurate decisions.  Quality decisions should trump
	expediency.  But this cannot be used as an excuse for a large 
	backlog.
	Timeliness continues to be a challenge.  As you indicated in 
	your opening statement, Mr. Chairman, a large percentage of
	claims have been pending for over 180 days.  It is unacceptable 
	for veterans to wait so long to receive benefits they have 
	earned.
	And, in fact, our service officers indicated that the time it 
	takes to develop claims seems to be getting longer.  They 
	recommended that VA create a fast track for claims that have the
	information necessary for a rapid ratings decision.
	Another issue is the time it takes in many locations processing
	claims regarding simple issues.  These issues include adding or
	removal of a dependent from a claims file, approving a housing 
	or automobile grant, or reducing a veteran�s aid and attendance 
	benefits when the veteran remains hospitalized.
	Service officers voiced great frustration with a VA regional 
	office staff who do not take action quickly on simple decisions 
	and that addressing these simple issues can take up to a year.
	A bright spot was generally favorable reviews regarding handling
	of claims for disability benefits of veterans injured in Iraq
	or Afghanistan.  VA is putting its best foot forward to help 
	these young men and women.  However, we must reiterate the need
	for the VA to provide this type of service universally.
	VBA needs to continue to improve its training program and follow 
	up the activities of its personnel through adequate 
	accountability of ratings staff at all levels.
	One of the immediate problems facing VBA is the impending
	retirement of many of its staff.  VBA believes the VA is 
	addressing this problem in a way that is adversely affecting
	ratings decisions.  New ratings personnel are being rushed 
	through training and then plugged into staff holes to begin 
	immediately rating claims.
	We believe these individuals should be required to undergo more 
	extensive training before being released to make decisions.
	PVA believes that accountability may be one of the most 
	important aspects in the claims adjudication process.  We are 
	concerned that VBA distorts accountability by basing performance
	on processing workload with little or no focus placed on making
	quality decisions.  Regional office managers will continue to
	do business in this fashion as long as there are no 
	repercussions for bad decisions.
	The Claims Processing Task Force addressed this concern in a 
	report by recommending that funding of regional offices be tied 
	to the performance of those offices with greater resources 
	allocated to the highest performers.  The poorest performing
	offices would receive no additional staff or increase in 
	resources.  This seems to be a backwards approach to the problem 
	and represents continued acceptance of failures in the 
	management structure of those offices.   
	The VA should focus more of its energy and resources on 
	improving the operations as well as the quality of decisions 
	of under-performing regional offices.  Sanctioning these 
	offices in this manner only punishes veterans who live in the
	jurisdiction of the offices.
	Our service officers also made a recommendation regarding the
	role of the Veterans� Health Administration in the claims
	process.  Specifically they emphasized the need for a universal
	link between VBA and VHA facilities.  This would allow VBA to
	have instant access to health records and information for a
	veteran who files a claim.  It would ensure that accurate 
	information is available for compensation and pension 
	examinations.
	These are specific observations from our field service 
	personnel, dedicated individuals who deal with these issues on
	an ongoing basis.
	We look forward to working with the Committee to ensure that 
	veterans� claims are processed in a timely manner and that they
	receive the most accurate rating decision possible.
	Thank you again for the opportunity to testify, and I would be 
	happy to answer any of your questions.
	[Statement of Blake C. Ortner appears on p. 106]
 
	THE CHAIRMAN.  Thank you.
	Mr. Kinderman.

STATEMENT OF QUENTIN KINDERMAN

	MR. KINDERMAN.  Thank you, Mr. Chairman, Mr. Udall.  The Veterans 
	of Foreign Wars appreciates this opportunity to present our views
	on claims processing in VBA.
	I think it will come as no surprise to you that we think the 
	basic problem is poor quality decision making.  The VFW supports
	providing adequate resources to the VBA to provide highly 
	accurate and timely benefits decisions.
	We think the resources should be linked to the improvement of
	quality of claims decisions, a strong commitment by VA
	leadership, and an effective improvement plan.
	The emphasis from the top of the VA has persistently been on 
	just moving the cases along to reduce the overall count and to
	bring down the backlog.
	Productivity increases are mandated by OMB.  This is a 
	euphemism for arbitrary cuts.  This is not conducive to either
	better than mediocre performance or risk taking by the VA
	leadership to improve the situation.
	We cannot understand the logic of cuts in discretionary GOE 
	resources that result in poor decision quality in the much 
	larger compensation entitlement program.  These cuts
	discourage competent administration of the entitlement program
	which requires much better quality control than they have now.
	Compared to the compensation program of a decade or more ago,
	the work is much more complicated.  The system assumes that 
	unless something different is justified that what is done is
	adequate.  VBA may set goals to improve quality above a 15
	percent error rate, but they lack a plan to get there.  This 
	is not adequate.
	Until VBA has an overall plan to improve the situation and ask
	for the resources to fix things, little will change for the
	better.
	VBA operates a quality monitoring system, acronym for which is 
	STAR, which finds on a sampling basis that about 15 percent of 
	the cases have a significant error.  STAR looks at only 100 
	cases per office.  VBA knows things are wrong, but lacks the
	specifics to act on them.
	Very few other cases are reviewed, and with the exception of
	the very small STAR centralized reviews, the reviews are
	tempered by a higher priority to move the workload.
	We think 15 percent is a very high error rate.  It suggests that
	every VBA decision maker makes a significant error approximately
	every other day.  Veterans and their survivors after waiting 
	many months or even years may receive a decision that is
	significantly flawed.
	Out of 700,000 or more cases done per year, 100,000 are flawed. 
	Issues aren�t all addressed, VCAA is violated, the decision is 
	wrong or the payment is wrong.  Nothing trivial is counted as an
	error.
	The IG found higher average compensation payments with 
	representation by veteran service organizations.  This may 
	reflect the VSO�s success in identifying rating decision makers� 
	errors and insisting on their correction either locally or on 
	appeal.  We have serious concerns for those veterans who file 
	claims with VA without our assistance.
	It seems clear that the VBA has no plan or methodology to 
	eliminate or even accurately identify the serious errors that
	plague one out of every seven or eight claims.  VBA must find 
	the courage to request the resources and commit to the goals 
	that a get-well plan would require.
	Faulty decision making cannot be fixed by improved information 
	technology or program reform and its attendant complexity and
	duplication.  It needs the commitment from the top down to do 
	every claim properly, consistent with the letter and the spirit
	of the law, and the resources and tools necessary to ensure 
	that that happens.
	Reform of this magnitude is only possible when all concerned are
	truly interested in improvement and not just putting a positive 
	spin on the latest bad news.
	We think that VBA is capable of this kind of improvement and
	has the honesty necessary to accomplish it.  We also think that 
	there is no more deserving population of beneficiaries for this 
	improvement than the current generation of veterans who are 
	returning from Iraq, Afghanistan, and elsewhere in the Global
	War on Terrorism.
	Thank you.  I would be pleased to respond to any questions, 
	Mr. Chairman.
	[Statement of Quentin Kinderman appears on p. 116]
 
	THE CHAIRMAN.  Thank you very much.
	Thank you, Mr. Secretary and Mr. Chairman, for sticking around. 
	You may be excused if you like.
	Before I move to questions, I would like to ask Mr. Doran, so
	I can get a better understanding, are you setting forth a public
	objection of the VA to do this study with IOM so that we may 
	better understand diagnosis, treatment, compensation?  I mean, I 
	do not understand what the objection is.
	MR. DORAN.  Mr. Chairman, I am setting forth a public objection 
	of VA spending over a million dollars to duplicate an effort 
	that you have directed the Veterans� Disability Benefit 
	Commission to do and that the Committee that wrote the DSM-IV 
	spent five years using over 1,000 professionals to write this 
	publication.  And VA is asking to repudiate it using 19 people 
	who have no idea what PTSD is all about.
	I do not want my million dollars of tax money being spent on 
	that when VA has other places they could use it more 
	appropriately.
	THE CHAIRMAN.  All right.  That might be a pretty strong 
	statement -- 
	MR. DORAN.  Yes, sir, it is.
	THE CHAIRMAN.   -- to say that IOM knows nothing about -- I will
	give you an opportunity to restate.
	MR. DORAN.  I am looking at the list of members of their Mental
	Health Committee, which I am assuming is the Committee that will
	be investigating PTSD.  There are no military physicians.  There
	are no DVA physicians.  There is nobody with any knowledge of
	combat-related PTSD according to their own biographies.
	THE CHAIRMAN.  The more we conduct an introspection to obtain 
	the greater understanding of physiologic, psychologic, 
	psychosocial effects of stress is pretty doggone important,
	Mr. Doran, I believe.
	Now, you may disagree with that, and I respect the position that
	you are taking with AMVETS that perhaps we should just lock 
	ourselves into present knowledge, but I disagree.
	MR. DORAN.  I am not saying lock ourselves in the present 
	knowledge, Mr. Chairman.  I am saying use the professionals that
	have the knowledge.  The people that make up this IOM Mental
	Health Committee do not apparently have that knowledge.
	THE CHAIRMAN.  All right.  You are correct about the charter to
	the Commission.  We also recognize that that charter was so 
	broad that they are questioning whether or not they can hit 
	their deadline and whether we are going to have to extend.
	And there will be cooperation between the Commission and the VA 
	with regard to the study and so it will not be duplicitous.  So
	I want you to know that.  Okay?
	MR. DORAN.  Oh, I understand that.  I just do not --  no.  I 
	just do not think we should -- 
	THE CHAIRMAN.  I did not know if you understood that based on
	your statement.
	MR. DORAN.  No, no.  We are talking apples and oranges here.
	THE CHAIRMAN.  You just said they are being duplicative.
	MR. DORAN.  I am talking about the second section of 
	Mr. Nicholson�s commitment to the IOM of rewriting the veterans
	rating schedules on PTSD.  That is something you have got the 
	VDBC looking at.
	THE CHAIRMAN.  Right.  I am not interested in being multiplicious
	at all either.  There is something out there for us that we need
	to have a greater understanding of.
	I embrace boldly any effort to understand it much better because 
	we are all dealing with our comrades who have some very difficult
	stressors that also then have a physiological effect.  The more 
	we can understand that the better, I think.
	Each of you in your testimony referenced staffing issues at VBA
	and I just want to make sure we get this consensus.
	Do you see additional staff right now a primary solution to 
	attacking part of this workload?  Am I hearing that as pretty 
	congruent?
	MR. DORAN.  Yes, sir.
	MR. MOONEY.  Yes, sir.
	THE CHAIRMAN.  All of you?
	MR. ORTNER.  Yes, sir.  But that is only the case if they are --
	I mean, if they are properly trained.  You can throw any number
	of staff at it.
	THE CHAIRMAN.  Yeah.  I get that from your testimony also about
	the supervision because obviously, even if we were to increase 
	the FTE going into next year, it is far much greater than that 
	because if you have supervisors out there, too, who are not as 
	qualified -- I mean, this is going to take some time here, 
	right?
	MR. KINDERMAN. Mr. Chairman -- 
	THE CHAIRMAN.  Yes.
	MR. KINDERMAN.   -- I think we also would like to see management 
	direction toward a better quality product rather than a rather 
	myopic view that they just want to get the backlogs down.
	I think the day when we can solve the problem with just getting 
	the backlogs down is over.  I think we need to focus for the 
	future and for now on getting these claims done right.
	THE CHAIRMAN.  When it takes two years to train a ratings 
	officer, doesn�t that sort of speak about the complexity of 
	what we are dealing with?
	MR. KINDERMAN.  I think that speaks to the complexity.  But I 
	think when you have that kind of complexity, you cannot simply
	turn someone loose without any kind of controls on the 
	quality of the product they are doing.
	If they are going off on their own and they are doing something 
	wrong and you are only picking it up in 100 cases a year in 
	that regional office, the damage is done.  And the damage has
	obviously a big number associated with it.
	A lot of those veterans will accept the decision.  They will 
	not appeal.  They will go on.  And what might seem like a small
	decision today can have massive effects on their lifetime later.
	I do not think there are any trivial decisions.
	THE CHAIRMAN.  I want to take a moment for you to tell a good 
	story.  Each of you represent organizations that do a lot of
	work out there on behalf of our comrades in the assistance and
	the filing of claims.
	Could you speak to -- let us go right down the line -- the 
	number of man hours that is and what type of training programs
	that each of you have to make sure that they are helpful with
	regard to the claims process.
	Mr. Lawrence.
	MR. LAWRENCE.  DAV has 260 national service officers and 
	approximately 30 transition service officers.  Our TSOs are 
	situated primarily at Benefits Delivery at Discharge sites, which
	I would also like to add we think are very efficient and also 
	produce a higher quality of decision.  And that could hold a key
	to future problems to this increase in the number of BDDs.
	THE CHAIRMAN.  Okay.
	MR. LAWRENCE.  But with regard to the training is for a national
	service officers, they undergo a 16-month training, a year of 
	which is OJT.
	THE CHAIRMAN.  Are these paid positions?
	MR. LAWRENCE.  Yes, sir.
	MR. MOONEY.  Mr. Chairman, The American Legion has accredited to
	it by the VA IG over 750 service officers.  Some of them work 
	directly for The American Legion.  Some work for state and 
	county veteran service agencies.  But they are all accredited
	through The American Legion.
	While our training program is not as regimented or rigorous as 
	DAV�s, we do take care to see that we have competent people out 
	there.  We also have a staff at the Board of Veterans� Appeals.
	And from my own experience, it takes about two and a half years 
	to become proficient in representing veterans in appeals at the 
	Board.
	I would like to make one other comment and I am drawing on my 
	prior career in the electrical construction business around the
	Washington area.  And, you know, when you get behind on a 
	construction contract, you are subject to liquidated damages, 
	you know, meaning money.  And what you do in that case is you 
	go down to the union hall and you get more electricians and you
	bring them on the job.  And you get caught up.
	And, you know, I understand federal hiring procedures and civil
	service regs are a lot more complicated than just going down to
	the union hall.  But when you get in a hole like VA is about to 
	get into with these annual increases in claims, they will 
	collapse under their own weight after a while.
	And something has to be done to head that off even if it is 
	temporary measures to bring down the workload because in the 
	veterans� business, the liquidated damages do not accrue to the
	contractor.  They accrue to the veteran because, you know, while
	they are waiting for their benefits to come around to be paid, 
	you know, things happen.  They lose their houses.  They lose 
	their families.  And it is a situation that has to be dealt with.
	THE CHAIRMAN.  Thank you.
	Mr. Doran.
	MR. DORAN.  Mr. Chairman, AMVETS as the Legion uses our own 
	national service offices, department service officers, county
	service officers, and state employees of Veterans� Affairs.  We
	have accredited through us about 385 individuals.
	Our own training program, which I can, unfortunately, only 
	enforce on my own staff of national service officers, includes 
	three days of hands-on, one-on-one training with the regional
	director before they are allowed to be turned loose with the 
	public.
	Now that the program is out, they have been going through the 
	Challenge Program that the VA has on the computer system and we 
	have them go through four days a year of continuing education.
	In addition to that, a few of the folks do attend the National 
	Association of County Veteran Service Officers Training Course, 
	wherever they hold it from year to year.  They go there at 
	their own option, but we pay for them to do that.
	And I would like to make a quick comment about the BDD as well. 
	You know, we talked about the staffing, and I agree with the 
	DAV that BDD working at the transition sites is outstanding.  
	But VA has divided the country in the middle and all benefits 
	due on delivery claims this side of the Mississippi River go to
	Winston Salem.  On the west side, they go to Salt Lake City.
	There are staffing problems in both of those areas.  And I am 
	not quite sure myself whether they are sending them to two 
	sites for a centralized adjudication center or because the sites
	in Seattle and Los Angeles and Bay Pines and so on are so 
	overwhelmed that they cannot keep up with the local military 
	folks getting out.
	I do know that it really makes it tough when the service officer
	is in Seattle and the veteran is Puget Sound and the claim is in
	Salt Lake City.  It is kind of tough to work out on this guy�s 
	behalf.
	MR. ORTNER.  Mr. Chairman, PVA is similar with DAV.  A large 
	number of service officers across the country, they are paid 
	employees.  They also go through a 16-month training program,
	which includes on-the-job training.
	In addition to that, they are trained in medical evaluations, 
	trained on regulations and VA procedures.  So they can tell what
	is going on and they can see when there is a problem.
	But in addition to that, they have ongoing evaluations to make 
	sure they remain competent in the field as well as testing for 
	any promotions as they move to a higher level of NSO positions.
	MR. KINDERMAN.  Mr. Chairman, unfortunately, I am from the 
	legislative side of the House and I am relatively new.  I do not 
	really have the specific information you are looking for on our 
	service officers.  But I would be pleased to get that for the
	record for you.  [The information provided is found on p. 162]
	THE CHAIRMAN.  NSOs, are they all veterans?
	MR. DORAN.  Mine are mostly service-connected disabled, mostly 
	military retirees.  A few of them are VA retirees.  And we have 
	stolen some of them from DAV.
	MR. MOONEY.  With The American Legion, it is a condition of 
	employment if you are going to work directly with the veteran 
	population.
	THE CHAIRMAN.  All the NSOs are veterans.  All right.  Thank you
	very much.
	MR. UDALL.
	MR. UDALL.  Thank you, Mr. Chairman.
	Does the testimony of Dr. Jones reflect the experience of 
	veterans your organizations serve in seeking to obtain 
	service-connected compensation benefits from the VA?
	MR. UDALL.  All of you indicating yes.
	And some of you are here that participate in the Independent
	Budget process and you heard the testimony earlier about the
	staffing problems.  You have very passionately, I think, talked
	about additional staffing.
	Are you in a position at this point to talk about what you think
	is needed in terms of additional staffing?
	MR. DORAN.  Not really.  Not without spending a little bit more 
	time sitting down with the books and the paperwork.  But off the 
	top of my head, the OMB had a lot more claims adjudicators and a
	lot less administrators.
	MR. UDALL.  A lot more claims adjudicators and a lot less -- 
	okay.
	Thank you very much.  We very much appreciate your testimony 
	today and we are greatly appreciative of your advocacy for 
	veterans.  Thank you for being here.
	Thank you, Mr. Chairman.
	THE CHAIRMAN.  You know what we have in front of us is sort of 
	this bridge in time.  We have the Disability Commission and we 
	have present problems in how we get to whatever the result is 
	going to be.  Okay?
	And when I look at that, if they are asking for an extension, we
	have got a two- to three-year window.  What is the ramp-up?  What
	is the training?  How much are they going to change the system? 
	You see what is in front of us?
	And I am challenged at the moment because I think there is going
	to have to be a consensus here between -- I think everyone on 
	this Committee will go to an increase in FTE but at what number,
	I do not know.  But my sense is that we are going to move in 
	that direction, Mr. Secretary, Mr. Chairman.
	As I continue -- not just myself -- as all members of this 
	Committee continue our work as we go into the 2007 budget
	process, it would probably be very prudent -- I will have a good
	conversation with Mr. Evans and we are going to explore this
	further.
	And if we need some more input from you gentlemen, please be 
	responsive.  I know you will be.  I think this is one we are 
	going to need to tackle.  Okay?
	Thank you very much for your time and your testimony today.  It 
	is very important.  Thank you.
	The hearing is now concluded.
	[Whereupon, at 4:25 p.m. the Committee was adjourned.]
    

</pre></body></html>
